Case: 20-1029

Document: 21-2

Filed: 12/16/2020

Page: 1

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit 1.O.P. 32.1 (b)
File Name: 20a0382p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

DARIUS THERIOT,

Petitioner-Appel/ant,

No. 20-1029
v.
BOB VASHAW,

Warden,
Respondent-Appel/ee.

Appeal from the United States District Court
for the Eastern District of Michigan at Flint.
No. 4:15-cv-13679-Linda V. Parker, District Judge.
Argued: October 21, 2020
Decided and Filed: December 16, 2020
Before: BATCHELDER, GRIFFIN, and MURPHY, Circuit Judges.

COUNSEL
ARGUED: Christopher J. McGrath, FEDERAL COMMUNITY DEFENDER'S OFFICE, Flint,
Michigan, for Appellant. Scott R. Shimkus, OFFICE OF THE MICHIGAN ATTORNEY
GENERAL, Lansing, Michigan, for Appellee. ON BRIEF: Christopher J. McGrath,
FEDERAL COMMUNITY DEFENDER'S OFFICE, Flint, Michigan, for Appellant. Scott R.
Shimkus, OFFICE OF THE MICHIGAN ATTORNEY GENERAL, Lansing, Michigan, for
Appellee.

Pet. App. la

Case: 20-1029

Document: 21-2

No. 20-1029

Filed: 12/16/2020

Theriot v. Vashaw

Page: 2

Page2

OPINION

GRIFFIN, Circuit Judge.
Petitioner Darius Theriot appeals the district court•s judgment that denied his petition for
a writ of habeas corpus, which he filed pursuant to 28 U.S.C. § 2254. He brings two right-topresent-a-defense claims and one right-to-confrontation claim. Unlike the district court, we do
not reach the merits of his claims. Instead, we hold that Theriot procedurally defaulted his
claims and that he has not persuaded us that-we should excuse his default. Accordingly, we
affirm the district court's judgment.
I.
"The facts as recited by the Michigan Court of Appeals are presumed correct on habeas
review pursuant to 28 U.S.C. § 2254(e)(l)." Shimel v. Warren, 838 F.3d 685, 688 (6th Cir.
2016). The pertinent facts are the following:
This case arises from a drive by shooting. Defendant Theriot drove the vehicle
from which defendant Matthews shot an AK-4 7, killing a pregnant woman and
injuring three others.
"***
... Defendant Theriot admitted to getting the gun, which he illegally owned, of
his own free will. One witness testified that defendant Theriot made the decisions
on where to go that night, and he intentionally drove his truck to the house and
slowed down when he drove by it. Defendant Theriot was quoted as saying,
"don't worry about it, we'll get them later, we'll take care of it in our own time,"
after four men associated with the victims had confronted defendant Theriot and
his friends. After the shooting, defendant Theriot wiped the gun clean of prints,
and he was the last person seen with the gun. He also urged witnesses not to
snitch and to lie for him.

People v. Matthews, No. 308369, 2013 WL 6703494, at *1, *4 (Mich. Ct. App. Dec. 19, 2013)
(per curium) (unpublished).

Pet. App. 2a

Case: 20-1029

Document: 21-2

No. 20-1029

Filed: 12/16/2020

Theriot v. Vashaw

Page: 3

Page 3

In a Michigan state court trial, a jury convicted petitioner Theriot "of one count of

second-degree murder, MCL 750.317, three counts of assault with intent to commit murder,
MCL 750.83, one count of assault of a pregnant individual causing death to fetus, MCL
750.90b(a), and one count of felony-firearm, MCL 750.227b." Matthews, 2013 WL 6703494, at
* 1. Theriot appealed to the Michigan Court of Appeals. Id. That court affirmed his convictions.
Id. at *7. The Michigan Supreme Court denied Theriot's application for leave to appeal the state

intermediate court's judgment. People v. Theriot, 849 N.W.2d 373, 373 (Mich. 2014) (mem.).
Thereafter, Theriot filed a habeas corpus petition pursuant to 28 U.S.C. § 2254, which he
later amended. He argued that the state trial court violated his constitutional rights when it
(1) prohibited him from questioning witnesses about his demeanor after the shooting (allegedly
violating his right to present a defense and his right to confrontation), and (2) prohibited him
from admitting jailhouse telephone call recording excerpts into evidence (allegedly violating his
right to present a defense). The state opposed the habeas petition.
The district court denied Theriot's amended habeas petition1 but granted a certificate of
appealability regarding his claims that the state trial court violated his federal constitutional
rights when it (1) prohibited him from questioning witnesses about his demeanor after the
shooting and (2) excluded jailhouse telephone call recording excerpts. Theriot v. Maclaren, No.
CV 15-13679, 2019 WL 7020689, at *13-:14 (E.D. Mich. Dec. 20, 2019). Petitioner timely
appealed the district court's judgment.
II.

When "considering a district court's denial of a petition for a writ of habeas corpus under
28 U.S.C. § 2254," such as the case at bar, "we review all legal conclusions de novo." Crump v.

Lafler, 657 F.3d 393, 396 (6th Cir. 2011).

1Tuere are actually two amended habeas petitions. Petitioner's appointed attorney filed the first one, and
petitioner himself filed the second one about a month later. The district court acknowledged the existence of the two
amended petitions, but it did not determine which one was the operative petition. Maclaren, 2019 WL 7020689, at
*3 n.2. Instead, the district court denied both petitions. Id at *14. Toe parties did not brief the question of which
amended petition controls. Toe differences between the two amended petitions, however, do not affect our
resolution of this appeal.

Pet. App. 3a

Case: 20-1029

No. 20-1029

Document: 21-2

Filed: 12/16/2020

Page: 4

Theriot v. Vashaw

Page4

III.
A.

"[A] federal court may not review federal claims that were procedurally defaulted in state
courts." Maslonka v. Hoffner, 900 F.3d 269,276 (6th Cir. 2018) (alteration in original) (quoting

Davila v. Davis, 137 S. Ct. 2058, 2064 (2017)), cert. denied sub nom. Maslonka v. Nagy, 139 S.
Ct. 2664 (2019).

When we conduct the procedural default analysis, we examine the last

reasoned state-court decision. Lovins v. Parker, 712 F.3d 283, 295 (6th Cir. 2013). A habeas
petitioner procedurally defaults a claim when "(1) [he] fails to comply with a state procedural
rule; (2) the state courts enforce the rule; [and] (3) the state procedural rule is an adequate and
independent state groillld for denying review of a federal constitutional claim."

Wheeler v.

Simpson, 852 F.3d 509,514 (6th Cir. 2017) (quoting Guilmette v. Howes, 624 F.3d 286,290 (6th
Cir. 2010) (en bane)). We have the option, however, to excuse a procedural default and review a
defaulted claim on the merits if a petitioner demonstrates "(1) cause for the default and actual
prejudice, or (2) that the failure to consider the claim will result in a fundamental miscarriage of
justice." Williams v. Bagley, 380 F.3d 932, 966 (6th Cir. 2004).

B.
Petitioner procedurally defaulted his right-to-present-a-defense claims. First, he did not
comply with Michigan's procedural rules concerning issue preservation. 2 In Michigan, "[t]o
preserve an issue for appellate review, a party must object below and specify the same groillld
for objection that it argues on appeal." People v. Bosca, 871 N.W.2d 307, 338 (Mich. Ct. App.
2015) (emphasis added); cf People v. Cain, 869 N.W.2d 829, 832 (Mich. 2015) ("[I]ssues that
are not properly raised before a trial court cannot be raised on appeal absent compelling or
extraordinary circumstances." (citation omitted)). In other words, "an objection based on one
groillld at trial is insufficient to preserve an appellate attack based on a different ground." People

v. Bulmer, 662 N.W.2d 117, 118 (Mich. Ct. App. 2003) (per curiam).

At trial, petitioner

objected based on Michigan's evidentiary rules. Matthews, 2013 WL 6703494, at *2, *4. But

2Petitioner even concedes that the non-compliance ''prong of the [procedural default] test is easily
satisfied."

Pet. App. 4a

Case: 20-1029

No. 20-1029

Document: 21-2

Filed: 12/16/2020

Page: 5

Theriot v. Vashaw

Page 5

because Theriot did not also make a contemporaneous objection predicated on violations of his
constitutional right to present a defense, he failed to comply with Michigan's procedural rules
regarding issue preservation. Second, the state intermediate court enforced its procedural rule.
We know that because a state appellate court's review for plain error is enforcement of a
procedural rule, Hinkle v. Randle, 271 F.3d 239, 244 (6th Cir. 2001) ("[W]e view a state
appellate court's review for plain error as the enforcement of a procedural default."), and here,
the Michigan Court of Appeals reviewed petitioner's right-to-present-a-defense claims for plain
error because he did not preserve them, Matthews, 2013 WL 6703494, at *2, *4.

Third,

Michigan's contemporaneous-objection rule "constitutes an adequate and independent state
ground for foreclosing federal review." Taylor v. McKee, 649 F.3d 446, 451 (6th Cir. 2011).
Because all the requirements are met regarding petitioner's right-to-present-a-defense claims, we
conclude that he procedurally defaulted them.
When a petitioner procedurally defaults a claim, he may nevertheless obtain review of the
claim if he demonstrates "cause for the default and actual prejudice." 3 Williams, 380 F.3d at
966. "A showing of cause requires more than the ,mere proffer of an excuse." Lundgren v.

Mitchell, 440 F.3d 754, 763 (6th Cir. 2006). Instead, ''the existence of cause for a procedural
default must ordinarily turn on whether the prisoner can show that some objective factor external
to the defense impeded counsel's efforts to comply with the State's procedural rule." Id at 76J64 (quoting Murray v. Carrier, 477 U.S. 478, 488 (1986)). Regarding his right-to-present-adefense claim that concerns the jail house telephone call recording excerpts, petitioner offers no
argument about cause or actual prejudice; therefore, he forfeits this issue. See Williamson v.
Recovery Ltd. P'ship, 731 F.3d 608, 621 (6th Cir. 2013) ("Issues adverted to in a perfunctory
manner, without some effort to develop an argument, are deemed forfeited."). Accordingly, we
will not excuse Theriot's procedural default of this claim.
Regarding his other right-to-present-a-defense claim (the one that concerns the demeanor
evidence), petitioner argues that the "external objective factor in this case was the [state] trial

3A petitioner can also have us excuse a procedural default if he demonstrates "that the failure to consider
the claim will result in a fundamental miscarriage of justice." Williams, 380 F.3d at 966. Theriot, however, does
not advance this theory for excusing a procedural default.

Pet. App. 5a

Case: 20-1029

No. 20-1029

Document: 21-2

Filed: 12/16/2020

Page: 6

Theriot v. Vashaw

Page6

court's refusal to permit counsel to finish making a complete record with regard to his objection
to the exclusion of testimony about Mr. Theriot's demeanor following the shooting."
Petitioner's theory seems to be that if the state trial court had not "short-circuited" the discussion
about the demeanor evidence, his attorney would have made an objection based on petitioner's
federal constitutional right to present a defense. But petitioner's trial attorney went back and
forth with the trial court for nearly ten transcript pages without making an objection in
constitutional terms.

Towards the end of this discussion, Theriot's trial attorney had

opportunities to object based on the constitutional right to present a complete defense but did not
do so. Moreover, the argument that trial counsel would have eventually made the constitutional
objection is speculative, and Theriot offers nothing to bring it out of the realm of sheer
possibility. Accordingly, we conclude that Theriot has fallen short of demonstrating cause to
excuse his procedural default.
As for actual prejudice, petitioner merely states that "[p]rejudice can take many forms,
some more obvious than others," and "[t]he prejudicial effect of the trial court's decision to
abruptly put an end to counsel's objection regarding' the exclusion of evidence of [petitioner's]
,

demeanor is plain and palpable." That argument is perfunctory, and as such, it fails. See Johns

v. Holder, 678 F.3d 404, 408-09 (6th Cir. 2012).
To have us excuse the procedural default of his right-to-present-a-defense claims,
petitioner had to show cause and actual prejudice.

Williams, 380 F.3d at 966. He did not

establish either element. Accordingly, we will not excuse these procedural defaults.

C.
Petitioner also procedurally defaulted his Confrontation Clause claim. First, he did not
comply with Michigan's procedural rule that requires litigants to support their claims with
sufficient argumentation. As the state intermediate court noted, Theriot "ma[de] no argument on
how he was denied [his] right" to confront witnesses against him. Matthews, 2013 WL 6703494,
at *4 n.3. And on appeal, he does not dispute his non-compliance. 4 Petitioner, therefore, did not

4 Petitioner

instead contends that the warden forfeited his opportunity to benefit from petitioner's purported
non-compliance because the warden-in his answer to the habeas petition-did not argue that petitioner's supposed

Pet. App. 6a

Case: 20-1029

Document: 21-2

No. 20-1029

follow this state procedural rule.

Filed: 12/16/2020

Theriot v. Vashaw

Page: 7

Page 7 ·

Second, the state intermediate court actually enforced its

procedural rule. Once the Michigan Court of Appeals concluded that Theriot had not offered an
argument regarding his Confrontation Clause claim, it determined that his failure rendered the
claim abandoned. Id. at *2 n.1 ("Theriot fails to specifically address how the trial court erred
[regarding his right-to-confrontation claim]. Thus, to the extent that defendant Theriot argues
that the trial court erred by prohibiting him from cross-examining the witness about defendant
Theriot's anger, this issue is abandoned."). Third, Michigan's abandonment rule is an adequate
and independent state-law basis for prohibiting federal review of a claim. See Harris, 680
N.W.2d at 21 ("An appellant's failure to properly address the merits of his assertion of error
constitutes abandonment of the issue."); see also Marchbanks v. Jones, No. l:06-CV-269, 2009
WL 1874191, at *2 (W.D. Mich. June 26, 2009) ("[A] review of Michigan cases shows that the
principal of abandonment is regularly applied and is a ground independent of the merits."); Smith

v. Wolfenbarger, No. 2:11-CV-10031, 2012 WL 1957286, at *9 (E.D. Mich. May 31, 2012)
(collecting cases). Since all the elements are met regarding petitioner's right-to-confrontation
claim, we conclude that he procedurally defaulted it.
Because Theriot has procedurally defaulted his right-to-confrontation claim, he must
demonstrate that we should excuse the default if he wants us to review the claim. Williams, 380
F.3d at 966. Despite having that burden, petitioner is inexplicably silent on why we should
excuse his default. Silence is not enough. Burley, 834 F.3d at 618. Accordingly, we will not
excuse Theriot's procedural default of his right-to-confrontation claim.
IV.
For these reasons, we affirm the district court's judgment.

non-compliance rendered the Confrontation Clause claim procedurally defaulted. Theriot's argument, however, is
unpersuasive because in his answer, the warden argued that Theriot had procedurally defaulted all his habeas claims.

Pet. App. 7a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2489 Filed 12/20/19 Page 1 of 37

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
DARIUS R. THERIOT,
Petitioner,

v.

Civil Case No. 15-13679
Honorable Linda V. Parker

DUNCAN MACLAREN,
Respondent.

- - - - - - - - - - - - - -I
OPINION AND ORDER DENYING THE AMENDED
PETITIONS FOR WRIT OF HABEAS CORPUS,
GRANTING IN PART A CERTIFICATE OF APPEALABILITY,
AND GRANTING LEAVE TO APPEAL IN FORMA PAUPERIS
Petitioner Darius R. Theriot (°'Theriot") has filed an amended habeas corpus

petition that-challenges his convictions in a Michigan state court for second-degree
murder, several_ assaults, and one firearm offense. He asserts that he was denied
· his right to present a defense and that his trial attorney's failure to object to the
scoring of the Michigan sentencing guidelines constituted ineffective assistance of
counsel. The State argues that Theriot procedurally defaulted two of his claims
and that the state appellate court's adjudication of his claims was objectively
reasonable.
The standard for evaluating state-court rulings is highly deferential, and the
state appellate court's adjudication ofTheriot's claims was not so lacking in
justification that there was an error beyond any possibility for fairminded
Pet. App. 8a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2490 Filed 12/20/19 Page 2 of 37

disagreement. Accordingly, the Court is denying Theriot' s request for habeas
relief.

I. Background
Theriot was charged with one count of first-degree murderin violation of
Michigan Compiled Laws § 750.316, three counts of assault with intent to commit
murder in violation of Michigan Compiled Laws § 750.83, one count of assaulting
a pregnant woman causing miscarriage or death to a fetus in violation of Michigan
Compiled Laws§ 750.90b(a), and one count of possessing a firearm during the
commission of a felony in violation of Michigan Compiled Laws§ 750.227b. The
charges arose from a drive-by shooting during the late evening or early mornings
hours between July 9-10, 2011.
The evidence at trial established that, on the night in question, Theriot and
some of his male :friends and relatives attended a party at JeNae Hudson's home on
Wabash Street in Detroit, Michigan. The young men were drinking and socializing
with some girls when two cars arrived at the house. Four young men jumped out
of one car in an aggressive manner; one of them had a gun. Theriot and his friends
approached the intruders to determine what the problem was. One of the intruders
responded that Theriot' s friend Devon Matthews had pointed a gun at the intruders
on a previous occasion. Theriot and his friends did not have any guns with them at

2

Pet. App. 9a .

case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.24'91 Filed 12/20/19 Page 3 of 37

the time. Theriot' s cousins Dominque Stewart and Roumelle Merchant diffused
the tension between the two groups of young men, and after Stewart shook hands
with someone, the intruders left. As they left, however, one of them said, "Y'all be
careful. You guys playing with fire."
Theriot then told his friends, "Don't worry about it, we'll get them later,"
and because he did not feel safe, he stated that he was going to get his gun. Theriot
and his friends left the party, got in Theriot's pick-up truck, and drove to his house,
where he retrieved an AK47 assault rifle. Theriot put the gun in the bed of his
truck and then drove the group back to the party.
After spending another twenty or thirty minutes at the party, the group left in
Theriot's truck. Theriot drove the group dowt;t the street where the people that had
interrupted the party lived. At the time, Matthews was seated in the bed of the
truck, and the rest of the group, including Roumelle Merchant, Manjaro Benning,
Dominque Stewart, and someone named Nicholas, were seated in the truck.
Deveius Weathers and Theriot's brother James followed in a white car.
Theriot slowed down near a house where some people were gathered
outside. Shortly afterward, Matthews fired the AK47 multiple times at the people
from the bed ofTheriot's truck. Two women and one man were injured in the·

3

Pet. App. 1Oa

Case 4:15.:cv-13679-LVP-RSW ECF No. 30, PagelD.2492 Filed 12/20/19 Page 4 of 37

shooting, and a pregnant woman was killed. The four victims were not the people
who had argued with Theriot and his friends earlier that night.
Theriot and his friends subsequently went to Theriot' s home where one or
more of the young men removed casings from the bed of the truck. From there, the
group went to a drug house where Theriot and Matthews wiped the gun to remove
fingerprints. The next day, Theriot and the young men who had been with him on
the previous night got together and talked about the shooting. Theriot was
nonchalant and said that there would be no snitching.
JeNae Hudson informed the police what she knew about the incident, and
Theriot reported to the police a few days after the shooting. In subsequent
jailhouse phone conversations with Stewart, Theriot encouraged Stewart to lie and
to say that Theriot did not have anything to do with the crime. Theriot also
informed Stewart that he (Theriot) was an enforcer.
Theriot and Matthews were tried jointly in Wayne County Circuit Court. 1
The prosecutor's theory was that Theriot aided and abetted Matthews in
committing the crime and that he was guilty even though he intended to harm a
different group of people than the ones who were shot.

1A

jury deliberated Theriot' s case, but Matthews waived his right to a jury trial
and asked the trial court to decide his case.
·
4

Pet. App. Ila

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2493 Filed 12/20/19 Page 5 of 37

Theriot was the only defense witness. His defense was that he did not intend
to kill anyone or have Matthews kill anyone and that there was reasonable doubt as
to whether he was guilty. He testified that he did not instruct or ask Matthews to
kill anyone, he did not know Matthews was going to kill anyone, and he did not
tell anyone to lie under oath in court. Theriot also testified that he put the AK47
rifle in his truck for protection because someone in the group that confronted him
and his friends earlier that night had a gun. He denied threatening anyone about
going to court; he also denied telling his friends to lie and not snitch, explaining
that, when he told his friends on the day after the shooting to say that he was not
driving during the shooting, he meant that he did not know who was shooting.
On December 7, 2011, the jury found T.heriot guilty of second-degree
murder, as a lesser-included offense of first-degree murder, and guilty as charged
on the three counts of assault with intent to commit murder, one count of assault of
a pregnant woman causing death to a fetus, and one count of felony firearm. The
trial court initially sentenced Theriot to four concurrent terms of forty-five to
eighty years in prison for the murder and the assaults with intent to commit
murder, a concurrent term often to fifteen years in prison for the assault on a
pregnant woman, and a consecutive term of two years in prison for the firearm
conviction.
5

Pet. App. 12a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2494 Filed 12/20/19 Page 6 of 37

In an appeal of right, Theriot argued that: ( 1) the trial court deprived him of
his right to present a defense and his right of confrontation by excluding evidence
that he reacted with surprise to the shooting; (2) the trial court deprived him of his
right to present a defense by denying his request to admit excerpts of his jailhouse
telephone calls; and, (3) the trial court erred by sentencing him as a second habitual
offender because (a) the prosecutor never filed a notice of intent to pursue an
enhanced sentence and (b) he did not have a prior felony conviction. Theriot also
requested the assignment of a different trial court judge if the case was remanded
for a new trial or re-sentencing. The Michigan Court of Appeals affirmed
Theriot' s convictions, but vacated his sentence and remanded his case to the trial
court for re-sentencing because Theriot shoulcJ not have been sentenced as a

habitual offender. See People v. Theriot, No. 308640, 2013 WL 6703494, at *1
and *6-*7 (Mich. Ct. App. Dec. 19, 2013) (unpublished). On July 29, 2014, the
state supreme court denied leave to appeal. See People v. Theriot, 849 N.W.2d 373
(Mich. 2014).
On October 31, 2014, the state trial court re-sentenced Theriot to four
concurrent terms of thirty-five to forty-five years in prison for the second-degree
murder and assault-with-intent-to-murder convictions and a concurrent sentence of
ten to fifteen years in prison for the assault-of-a-pregnant-woman conviction. The
6

Pet. App. 13a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2495 Filed 12/20/19 Page 7 of 37

court also sentenced Theriot to two years in prison for the felony-firearm
conviction, but it noted that Theriot had already served that sentence.
Theriot appealed his new sentence, claiming that he was entitled to resentencing because his trial attorney failed to object to the scoring of offense
variable five of the sentencing guidelines. The Michigan Court of Appeals
affirmed the sentence, concluding that offense variable five was correctly scored
and counsel was not ineffective for failing to object to the scoring of the variable.

See People v. Theriot, No. 325973 (Mich. Ct. App. June 21, 2016).
Meanwhile, on October 16, 2015, Theriot commenced this action by filing a
prose habeas corpus petition under 28 U.S.C. § 2254 and a motion for
appointment of counsel. In his habeas petitio:r;t, Theriot argued as grounds for relief

that the trial court violated his constitutional rights by ( 1) excluding evidence of his
surprised reaction immediately after the shooting and (2) refusing to allow his
attorney to admit in evidence excerpts of recorded phone conversations. After

Respondent filed an answer to the petition, the Court granted Theriot' s motion for
appointment of counsel and, on October 31, 2016, newly-appointed counsel for
Theriot moved to hold the habeas petition in abeyance because Theriot' s appeal
from his new sentence was pending in the Michigan Supreme Court.

7

Pet. App. 14a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2496 Filed 12/20/19 Page 8 of 37

On December 15, 2016, the Court granted the motion for a stay and closed
this case for administrative purposes. On January 5, 2017, the Michigan Supreme
Court denied leave to appeal Theriot' s sentencing claims because it was not
persuaded to review the questions presented to it. See People v. Theriot, 888
N.W.2d 103 (Mich. 2017).
Theriot then filed an am.ended habeas petition and a motion to re-open this
case. 2 The Court granted the motion to re-open this case, and Respondent
subsequently filed a supplemental answer which addresses Theriot's sentencing
claim.
II. Standard of Review

The Antiterrorism and Effective Death Penalty Act of 1996 ("AEDPA")
requires habeas petitioners who challenge "a matter 'adjudicated on the merits in
State court' to show that the relevant state court 'decision' (1) 'was contrary to, or
involved an unreasonable application of, clearly established Federal law,' or (2)
'was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceedings.'" Wilson v. Sellers, 138 S. Ct. 1188,

Theriot actually filed two amended petitions. The first one (ECF No. 21) was
filed by his appointed attorney, and the second one (ECF No. 23) was filed by
Theriot himself.
8
2

Pet. App. 15a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2497 Filed 12/20/19 Page 9 of 37

1192 (2018) (quoting 28 U.S.C. § 2254(d)). "[A] federal habeas court may not
issue the writ simply because that court concludes in its independent judgment that
the relevant state-court decision applied clearly established federal law erroneously
or incorrectly. Rather, that application must also be unreasonable." Williams v.
Taylor, 529 U.S. 362,411 (2000). "AEDPA thus imposes a 'highly deferential

standard for evaluating state-court rulings,' Lindh v. Murphy, 521 U.S. 320, 333, n.
7 (1997), and 'demands that state-court decisions be given the benefit of the
doubt,' Woodfordv. Visciotti, 537 U.S. ~9, 24 (2002) (per curiam)." Renico v.

Lett, 559 U.S. 766, 773 (2010).
"A state court's determination that a claim lacks merit precludes federal
habeas relief so long as 'fairmindedjurists could disagree' on the correctness of the
state court's decision." Harrington v. Richter, 562 U.S. 86, 101 (2011) (quoting

Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). To obtain a writ of habeas

corpus from a federal court, a state prisoner must show that the state court's ruling
on his or her claim "was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility for
fairminded disagreement." Id. at 103. A state-court's factual determinations are
presumed correct on federal habeas review, 28 U.S.C. § 2254(e)(l), and review is

9

Pet. App. 16a

Case 4:15-cv-13079-LVP-RSW ECF No. 30, PagelD.2498 Filed 12/20/19 Page 10 of 37

"limited to the record that was before the state court." Cullen v. Pinholster, 563

U.S. 170,181 (2011i
III. Analysis
A. The Exclusion of Evidence About Theriot's Reaction to the Shooting

Theriot alleges first that the trial court deprived him of his right of
confrontation and his right to present a defense by excluding his verbal and
nonverbal expressions of surprise immediately after the shooting. The trial court
ruled that Theriot's surprised demeanor and his remark, "What the hell was that?"
were assertions and inadmissible as hearsay.
Theriot, on the other hand, maintains that his surprised demeanor was nonassertive conduct, which is admissible in evid~nce, and that his question, "What

the hell was that?" was not offered for the truth or was admissible under the
"excited utterance" exception to the hearsay rule. He contends that the trial court
should have admitted evidence of his reaction to the shooting during his crossexamination of prosecution witnesses because the evidence would have bolstered
his defense that he lacked the necessary intent to be convicted of aiding and
abetting Devon Matthews.
The Michigan Court of Appeals agreed with Theriot on the state evidentiary
issue and concluded that the trial court abused its discretion by prohibiting Theriot

10
Pet. App. 17a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2499 Filed 12/20/19 Page 11 of 37

from asking witnesses about his demeanor and question immediately after the
shooting. Theriot, 2013 WL 6703494, at *2. The Court of Appeals, nevertheless,
concluded that the error was harmless and that Theriot was not entitled to relief.
Id. at *2, 4. As for Theriot's claim that his right of confrontation was violated, the

Court of Appeals stated that Theriot abandoned the claim by not making an
argument on how he was denied the right.
The Court of Appeals reviewed Theriot's claim regarding the right to present
a defense for "plain error" because Theriot did not preserve the issue by objecting
on constitutional grounds at trial. Id at *2 .. The Court of Appeals cited Supreme
Court precedent on the constitutional issue, but then concluded that the evidentiary
error did not rise to the level of a constitutiornil deprivation. Id. at 4. The court
found that Theriot was not denied a meaningful opportunity to present a defense
"because there was testimony showing that he was scared after the shooting based
on how he sped off and jerked the truck[]" and because he was able to ask the
witnesses questions about the incident to show that he did not know there would be
a shooting. Id.
1. Procedural Default

Respondent argues that Theriot procedurally defaulted his claim regarding
the right to present a defense because the Michigan Court of Appeals reviewed that
11

Pet. App. 18a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2500 Filed 12/20/19 Page 12 of 37

claim for "plain error." 3 Theriot maintains that there was no procedural default
because his trial attorney did object at trial and because the Court of Appeals
reviewed his claim on the merits.
In the habeas context, a procedural default is "a critical failure to comply
with state procedural law." Trest v. Cain, 522 U.S. 87, 89 (1997 ). Under the
doctrine of procedural default, "a federal court will not review the merits of [a state
prisoner's] claims, including constitutional claims, that a state court declined to

hear because the prisoner failed to abide by a state procedural rule." Martinez v.
Ryan, 566 U.S. 1, 9 (2012).
A procedural default is not a jurisdictional bar to reviewing the merits of a
claim, Howardv. Bouchard, 405 F.3d 459, 47,6 (6th Cir. 2005), and "federal courts

are not required to address a procedural-default issue before deciding against the
petitioner on the merits." Hudson v. Jones, 351 F.3d 212,215 (6th Cir. 2003)
(citing Lambrix v. Singletary, 520 U.S. 518, 525 (1997)). Because Theriot's claim

does not warrant habeas relief, the Court bypasses the procedural-default analysis
and proceeds directly to the merits of his claim.

Respondent has not argued that Theriot's claim under the Confrontation Clause is
procedurally defaulted.
12
3

Pet. App. 19a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2501 Filed 12/20/19 Page 13 of 37

2. The Merits
Theriot asserts that the trial court erred when it ruled that he could not elicit
testimony regarding his verbal and nonverbal reactions to the shooting. He
maintains that the proffered testimony was admissible under the Michigan Rules of
Evidence and state-court decisions.
The contention that the trial court violated Michigan's evidentiary rules is
not a cognizable claim on federal habeas review, Hall v. Vasbinder, 563 F.3d 222,
239 (6th Cir. 2009), because "federal habeas corpus relief does not lie for errors of

state law." Lewis v. Jeffers, 497 U.S. 764, 780 (1990). "In conducting habeas
review, a federal court is limited to deciding whether a conviction violated the
Constitution, laws, or treaties of the United St~tes." Estelle v. McGuire, 502 U.S.
62, 68 ( 1991 ). The only question is whether excluding testimony about Theriot' s
reaction to the shooting violated his constitutional rights to present a defense and to
confront the witnesses against him.

a. Right to Confrontation
Theriot contends that not being able to ask witnesses about his reaction to
the shooting violated his right to confront the witnesses.

13

Pet. App. 20a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2502 Filed 12/20/19 Page 14 of 37

1.

Clearly Established Federal Law

The Sixth Amendment to the United States Constitution guarantees a
defendant in a criminal prosecution "the right ... to be confronted with the
witnesses against him." U.S. CONST. amend. VI. This right is "applicable to the
States through the Fourteenth Amendment," Idaho v. Wright, 497 U.S. 805, 813
(1990), and it "includes the right to cross-examine witnesses." Richardson v.
Marsh, 481 U.S. 200,206 (1987).

A defendant's right to confront the witnesses against him, however, is not
absolute. United States v. Davis, 430 F.3d 345, 360 (6th Cir. 2005). "Generally
speaking, the Confrontation Clause guarantees an opportunity for effective crossexamination, not cross-examination that is effective in whatever way, and to
whatever extent, the defense might wish." Delaware v. Fensterer, 474 U.S. 15, 20
( 1985) (emphasis in original). When it is merely the extent of cross-examination
that is limited, a trial court retains considerable discretion to bar exploration of a
relevant subject on cross-examination. Dorsey v. Parke, 872 F.2d 163, 166-67 (6th
Cir. 1989). "Where the trial court limits the extent of cross-examination, the
inquiry for the reviewing court is 'whether the jury had enough information,
despite the limits placed on otherwise permitted cross-examination, to assess the
defense theory." Stewart v. Wolfenbarger, 468 F.3d 338, 347 (6th Cir. 2006), as
14

Pet. App. 21a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2503 Filed 12/20/19 Page 15 of 37

amended on denial ofreh'g and reh'g en bane (Feb. 15, 2007) (quoting Dorsey,
872 F.2d at 167).

ii.

Application

Theriot's trial attorney was not prevented from cross-examining prosecution
witnesses. He was merely barred from asking them what Theriot' s demeanor was,
and what he had said, immediately after the shooting. Although Theriot contends
that testimony about his surprised reaction to the shooting would have supported
his defense that he did not know what Matthews intended to do, his trial attorney
was able to elicit testimony from more than one prosecution witness that Theriot
did not instruct any of his friends to shoot anyone. Furthermore, because Theriot
was able to describe his reaction to the shooting when he testified, the jury had
enough information, despite the limits placed on the cross-examination of
witnesses, to assess the defense theory.
The Court also is mindful that errors under the Confrontation Clause are
subject to harmless error analysis. Delaware v. Van Arsdall, 475 U.S. 673, 684
(1986); Vasquez v. Jones, 496 F.3d 564, 574 (6th Cir. 2007). For reasons
explained more fully below in the discussion on Theriot's right to present a
defense, the evidence against Theriot was strong. The alleged confrontational
error, therefore, was harmless, and Theriot is not entitled to relief on his claim.
15

Pet. App. 22a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2504 Filed 12/20/19 Page 16 of 37

b. The Right to Present a Defense

Theriot claims that the exclusion of evidence regarding his reaction to the
shooting violated his right to present a defense.
i. Clearly Established Federal Law

"Whether rooted directly in the Due Process Clause of the Fourteenth
Amendment or in the Compulsory Process or Confrontation clauses of the Sixth
Amendment, the Constitution guarantees criminal defendants a meaningful
opportunity to present a complete defense." Crane v. Kentucky, 476 U.S. 683, 690
( 1986) ( citations and internal quotation marks omitted). The exclusion of evidence
is unconstitutional if it "significantly undermined fundamental elements of the
defendant's defense." United States v. Scheffer, 523 U.S. 303, 315 (1998).
"Restrictions on the defendant's right to present relevant evidence ... may not be
arbitrary or disproportionate to the purposes they are designed to serve." Id. at 330
(Stevens, J., dissenting) (citing Rock v. Arkansas, 523 U.S. 303, 330 1988)).
"The right to present a defense, however, is not absolute." Ferensic v.

Birkett, 501 F.3d 469,475 (6th Cir. 2007) (citing Taylor v. Illinois, 484 U.S. 400,
409 (1988), and Michigan v. Lucas, 500 U.S. 145, 152 (1991)). Trial judges may
"exclude evidence if its probative value is outweighed by certain other factors such
as unfair prejudice, confusion of the issues, or potential to mislead the jury."
16
Pet. App. 23a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2505 Filed 12/20/19 Page 17 of 37

Holmes v. South Carolina, 547 U.S. 319, 326 (2006). The Constitution also

permits judges to exclude evidence that is repetitive. Id.
Further, "erroneous evidentiary rulings rarely constitute a violation of a
defendant's right to present a defense." United States v. Hardy, 586 F.3d 1040,
1044 (6th Cir. 2009) (citing Washington v. Schriver, 255 F.3d 45, 56 (2d Cir.
2001)). A habeas "court's duty 'is not to determine whether the exclusion of the
evidence by the trial judge was correct or incorrect under state law, but rather

whether such exclusion rendered [the] petitioner's trial so fundamentally unfair as
to constitute a denial of federal constitutional rights.' " Lewis v. Wilkinson, 307
F.3d 413,420 (6th Cir. 2002) (quoting Logan v. Marshall, 680 F.2d 1121, 1123
(6th Cir. 1982)). Thus, "even if exclusion of ¥vidence was erroneous under state

law, the constitutional right to present a defense is not abridged unless the evidence
was so material that it deprived the defendant of a fair trial." Allen v. Howes, 599

F. Supp. 2d 857,872 (E.D. Mich. 2009).
ii. Application

Theriot points to two places in the record where he was deprived of his right
to show that he was surprised by the shooting. The first instance occurred when
defense counsel attempted to ask prosecution witness Manjaro Benning whether
Theriot was angry at anybody after the shooting. The prosecutor objected to the
17

Pet. App. 24a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2506 Filed 12/20/19 Page 18 of 37

question, and the trial court sustained the objection on grounds that an answer to
the question would be speculative and possibly hearsay if the answer included
Theriot's words or nonverbal assertions. (See 11/29/11 Trial Tr. at 84-85, ECF No.
10-9 at Pg ID 664-65.)
The second instance occurred when defense counsel asked Roumelle
Merchant how Theriot reacted after the shooting. The prosecution objected to the
question, and the trial court sustained the objection on the basis that Theriot's
reaction would be an assertion and, therefore, inadmissible hearsay. (See 11/30/11
Trial Tr. at 172-75, ECF No. 10-10 at Pg Id 959-60.)
Defense counsel subsequently raised the issue in the jury's absence and
explained that, when he asked Merchant how :Theriot reacted immediately after the
shooting, he anticipated that Merchant would say that Theriot acted surprised and
said, "What the hell was that?" The trial court upheld its previous ruling that
Theriot's reactions to the shooting were assertions of innocence and inadmissible
as hearsay. (See 12/1/11 Trial Tr. at 7-15, ECF No. 10-11 at Pg ID 1026-1034.)
The probative value of the testimony that Theriot wanted to elicit from those
witnesses was not outweighed by factors such as unfair prejudice, confusion of the
issues, or the potential to mislead the jury. Nevertheless, as the Michigan Court of
Appeals pointed out,
18

Pet. App. 25a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2507 Filed 12/20/19 Page 19 of 37

Theriot was not precluded from presenting a complete defense
because there was testimony showing that he was scared after the
shooting based on how he sped off and jerked the truck. Defendant
Theriot was also able to ask the witnesses whether anyone encouraged
defendant Theriot to get the gun and drive by the house, and whether
defendant Theriot ordered or encouraged defendant Matthews to
shoot.
Theriot, 2013 WL 6703494, at *4.
The state appellate court's summary of the facts is supported by the record.
(See 11/29/11 Trial Tr. at 85-86, ECF No. 10-9 at Pg ID 665-66 (defense counsel's
cross-examination of Benning on whether Benning heard anyone encourage or
instruct someone to shoot a gun and whether Theriot had motioned to anyone); id.
at 82, Pg ID 662 (Benning's testimony that the shooting was somewhat of a
surprise to him); id. at 95-96, Pg ID 675-76 (Benning's testimony that he did not
hear Theriot speak with Matthews before the shooting); id. at 163-65, Pg ID 74345 (defense counsel's cross-examination of Dominque Stewart regarding whether

Theriot told Matthews to kill somebody and whether there was any conversation
about killing anybody); id. at 169, Pg ID 749 (Stewart's testimony that Theriot and
everyone else in their group acted scared after the shooting); 11/30/11 Trial Tr. at
169, 172, ECF No. 10-10 at Pg ID 956, 959 (defense counsel's cross-examination
ofRoumelle Merchant regarding whether Theriot instructed Matthews to shoot
anyone); id. at 172, Pg ID 959 (Merchant's testimony that Theriot acted scared
19
Pet. App. 26a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PageiD.2508 Filed 12/20/19 Page 20 of 37

after the shooting); 12/1/11 Trial Tr. at 162, ECF No. 10-11 at Pg ID 1181 (defense
counsel's cross-examination of James Theriot and James' testimony that he did not
hear anyone planning the shooting, and he did not hear anyone say, "Let's go kill
somebody").
Theriot, moreover, testified that the gunshots surprised him and that after the
shooting, he asked the men in his truck what happened. (See 12/5/11 Trial Tr. at
171, ECF No. 10-12 at Pg ID 1380.) According to Theriot, he asked Matthews
what he was shooting. (See id. at 172, Pg ID 1381.) He also testified that
immediately after the shooting, his reaction was, "What the heck just happened?"
(12/6/11 Trial Tr. at 32, ECF No. 10-13 at Pg ID 1427.) He stated that he had been
mad and confused by the shooting and that he.had not known exactly what was

happening. (Id. at 32-33, Pg ID 1427-28.)
The Court cannot conclude that fairminded jurists could disagree on the state
court's determination that permitting Theriot to introduce evidence from
prosecution witnesses that he was surprised by the shooting would have been
cumulative to his live testimony. 4 The exclusion of additional testimony about

In this Court's view, evidence that Petitioner was "scared" after the shooting is
not the same as evidence showing that he was "surprised" shots were fired. The
fact that Petitioner sped off after the shooting does not necessarily demonstrate that
he was surprised that it happened. Additional evidence from other witnesses as to
20
4

Pet. App. 27a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2509 Filed 12/20/19 Page 21 of 37

Theriot's verbal and nonverbal reactions to the shooting did not violate his
constitutional right to present a defense. See United States v. Reichert, 747 F.3d
445, 454 (6th Cir. 2014) (concluding that the defendant's constitutional right to
present a defense was not violated by the exclusion of testimony because the
defendant "had at least one other avenue of putting his own statements and beliefs
into evidence: by taking the stand himself').

c. Harmless Error
Even if the Court concluded that the exclusion of this evidence violated
Theriot's right to present a defense, the violation is subject to harmless error
analysis. See Fleming v. Metrish, 556 F.3d 520, 536 (6th Cir. 2009) (analyzing a
claim regarding the exclusion of testimony an4 the right to present a defense for
harmless error). On habeas review, an error is harmless unless it had a "substantial
and injurious effect or influence" on the verdict. Brecht v. Abrahamson, 507 U.S.
619,623 (1993) (quotingKotteakos v. United States, 328 U.S. 750, 776 (1946)).
As recently explained by the Sixth Circuit Court of Appeals:

the latter would therefore not have been cumulative. Further, a jury could find
Petitioner's testimony on the issue self-serving and therefore testimony from other
witnesses could have been helpful. For these reasons, the Court is granting a
certificate of appealability on this claim. See infra.
21

Pet. App. 28a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2510 Filed 12/20/19 Page 22 of 37

In federal habeas proceedings, the Brecht standard governs and the
federal court will not grant habeas relief unless the state error
"resulted in 'actual prejudice.'" [Davis v. Ayala, 135 S. Ct. 2187,
2197 (2015)] (quoting Brecht, 507 U.S. at 637, 113 S.Ct. 1710). This
means that in order to grant habeas relief, the court must have at least
"grave doubt about whether a trial error of federal law had 'substantial
and injurious effect or influence in determining the jury's verdict.'"
O'Neal v. McAninch, 513 U.S. 432,436, 115 S.Ct. 992, 130 L.Ed.2d
947 (1995) (quoting Brecht, 507 U.S. at 627, 113 S.Ct. 1710).
"[G]rave doubt" about whether the error was harmless means that "the
matter is so evenly balanced that [the court] feels [it]self in virtual
equipoise as to the harmlessness of the error." Id. at 435, 115 S.Ct.
992.

O'Neal v. Balcarcel, 933 F.3d 618, 624 (6th Cir. 2019).
Here, the evidence against Theriot was substantial, if not overwhelming. At
his sentencing, the trial court summarized the evidence against Theriot as follows:
THE COURT: Well, here's ... essenti~lly what the evidence was.
[I]t was his [Theriot's] gun, his car, his idea, his idea to put the gun in
the hands of the killer. And even though he was convicted as an aider
and abettor, the record is just replete with evidence that he's the
ringmaster or the puppeteer in this entire affair.

He was behind the wheel of the truck when it slowed down to
facilitate the shooting. And, ... all of his post shooting activities ...
really show[] how he was engaged in ... extraordinary efforts to
manipulate the outcome of the event and the case.
He is the overt leader in this situation. And his own words ... [that
he is] the shot caller and the one who causes everybody's demeanor to
change when he comes on the scene is just ... abundant evidence of
his leadership in this entire tragic deathly bloody affair.
22

Pet. App. 29a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2511 Filed 12/20/19 Page 23 of 37

(1/4/12 Sentence Tr. at 7-8, ECF No. 10-15 at Pg ID 1632-33.) The Michigan
Court of Appeals summarized the facts similarly, noting that
Theriot admitted to getting the gun, which he illegally owned, of his
own free will. One witness testified that defendant Theriot made the
decisions on where to go that night, and he intentionally drove his
truck to the house and slowed down when he drove by it. Defendant
Theriot was quoted as saying, "don't worry about it, we'll get them
later, we'll take care of it in our own time," after four men associated
with the victims had confronted defendant Theriot and his friends.
After the shooting, defendant Theriot wiped the gun clean of prints,
and he was the last person seen with the gun. He also urged witnesses
not to snitch and to lie for him.

Theriot, 2013 WL 6703494, at *4.
The state courts' summaries of the facts are supported by the record. There
was additional evidence that Theriot knew his. gun was loaded when he put it in his

truck (see 12/6/11 Trial Tr. at 60, ECF No. 10-13 at Pg ID 1455), and that he was
nonchalant immediately after the shooting and on the following day. (See 11/29/11

Trial Tr. at 70, 87, ECF No. 10-9 at Pg ID 650, 667.)
The evidence against Theriot was not so evenly balanced that the jurors
would have reached a different verdict if witnesses had testified about Theriot
being surprised after the shooting. This Court, therefore, does not have a grave
doubt as to whether the alleged errors had a substantial and injurious effect or
influence on the jury's verdict, that is, whether the error was harmless.
23
Pet. App. 30a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2512 Filed 12/20/19 Page 24 of 37

Accordingly, the state appellate court's conclusions that Theriot was not deprived
of a meaningful opportunity to present a defense and that the evidentiary error was
harmless were objectively reasonable.
Theriot was not deprived of a fair trial by the exclusion of evidence, and
even ifhe was, the error was harmless. He is not entitled to relief on his claim.

B. The Exclusion of Excerpts from Recordings of Phone Calls
Theriot alleges next that the trial court's denial of his request to admit small
portions of recordings of his jailhouse telephone calls to friends and relatives
violated his right to present a defense. The prosecution initially introduced
excerpts of the recordings, but when defense counsel tried to introduce additional
excerpts of the recordings to show that the calls were taken out of context, the trial
court denied his request. Theriot argues that the trial court's ruling violated
Michigan's "rule of completeness," see Mich. R. Evid. 106,5 and also deprived him

5

This rule reads as follows:
When a writing or recorded statement or part thereof is introduced by
a party, an adverse party may require the introduction at that time of
any other part or any other writing or recorded statement which ought
in fairness to be considered contemporaneously with it.

Mich. R. Evid. 106.
24

Pet. App. 31 a

Case 4:15-cv-13679-LVP--RSW ECF No. 30, PagelD.2513 Filed 12/20/19 Page 25 of 37

of his constitutional right to present a defense because the proffered evidence
revealed the real meaning of his comments.
The Michigan Court of Appeals reviewed Theriot' s evidentiary claim on the
merits and concluded that the trial court did not err by refusing to play the
additional excerpts. Theriot, 2013 WL 6703494 at *5. The Court of Appeals
reviewed Theriot's constitutional claim for "plain error" because Theriot did not
preserve the claim for appellate review. Id. at *4. The Court of Appeals then
concluded that no constitutional error occurred. Id. at *5.
Respondent argues that Theriot's·claim is procedurally defaulted because he
did not object on constitutional grounds at trial. Theriot maintains that his claim is
not procedurally defaulted because the state court denied his claim on the merits,
rather than on the basis of a procedural default.
As noted above, a procedural default is not a jurisdictional bar to review of
the merits, Howard, 405 F.3d at 476, and "federal courts are not required to
address a procedural-default issue before deciding against the petitioner on the
merits." Hudson, 351 F.3d at 215. In the interest of efficiency, the Court bypasses
the procedural-default analysis and proceeds directly to the merits ofTheriot's
claim.

25
Pet. App. 32a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2514 Filed 12/20/19 Page 26 of 37

1. Clearly Established Federal Law

Petitioner had a constitutional right to present a complete defense, Crane,
476 U.S. at 690, but the right to present a defense is not absolute. Ferensic, 501
F.3d at 475. Although the Constitution "prohibits the exclusion of defense
evidence under rules that serve no legitimate purpose or that are disproportionate
to the ends that they are asserted to promote, well-established rules of evidence
permit trial judges to exclude evidence if its probative value is outweighed by
certain other factors such as unfair prejudice, confusion of the issues, or potential
to mislead the jury." Holmes, 547 U.S. at 326. The Supreme Court has "never
questioned the power of States to exclude evidence through the application of
evidentiary rules that themselves serve the int~rests of fairness and reliability even if the defendant would prefer to see that evidence admitted." Crane, 476 U.S.
at 690 (citing Chambers v. Mississippi, 410 U.S. 284, 302 (1973)). As the Court
explained in Scheffer:
A defendant's right to present relevant evidence is ... subject to
reasonable restrictions. A defendant's interest in presenting such
evidence may thus bow to accommodate other legitimate interests in
the criminal trial process. As a result, state and federal rulemakers
have broad latitude under the Constitution to establish rules excluding
evidence from criminal trials. Such rules do not abridge an accused's
right to present a defense so long as they are not "arbitrary" or
"disproportionate to the purposes they are designed to serve."
26

Pet. App. 33a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.251·5 Filed 12/20/19 Page 27 of 37

523 U.S. at 308 (footnote, additional quotation marks and citations omitted). A
reviewing court's duty is to determine whether the exclusion of evidence rendered
the petitioner's trial so fundamentally unfair as to violate his constitutional rights,
Lewis, 307 F .3d at 420, or deprive the defendant of a fair trial. Allen, 599 F. Supp.
2d at 872.

2. Application
During the first day of testimony, the prosecution introduced evidence of a
phone conversation between Theriot and Dominque Stewart a few weeks after the
shooting. During that conversation, Stewart stated that he wished he could go back
to that night, and Theriot responded that "we" made some bad decisions that night.
(See 11/29/11 Trial Tr. at 152-53, ECF No. lQ-9 at Pg ID 732-33.)
Later in the trial, defense counsel argued in the jury's absence that the
recording was unclear as to whether Theriot had said "he" or "we" made some bad
decisions on the night of the crime. He requested permission to introduce another
part of the recording to show that the conversation was really about "manning up"
to the crime and telling the police what he did. (See 12/6/11 Trial Tr. at 12-13,

ECF No. 10-13 at Pg ID 1407-08.) The trial court denied defense counsel's
request because the proposed evidence was self-serving hearsay and because

27

Pet. App. 34a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2516 Filed 12/20/19 Page 28 of 37

Theriot had taken the stand and could testify as to what he meant. (Id. at 13-14, Pg
ID 1408-09.)
The prosecution introduced another recording of a jailhouse phone call in
which Stewart was discussing JeNae Hudson with Theriot. Hudson had spoken to
the police and implicated Theriot in the crime shortly after the shooting, and during
Stewart's phone conversation with Theriot, Theriot stated he did not know what
Hudson had told the police. He also said that Hudson "was on some bullshit."
(See 11/29/11 Trial Tr. at 26, ECF No. 10-9 at Pg ID 606; 12/6/11 Trial Tr. at 16,

ECF No. 10-13 at Pg ID 1411.) Defense counsel stipulated to the admission of the
recording (see 11/29/11 Trial Tr. at 112, ECF No. 10-9 at Pg ID 692), but he
subsequently asked for permission to introduc~ twenty-four more seconds of that
recording to show that Theriot was referring to some photos and warrants. (See
12/6/11 Trial Tr. at 15-16, ECF No. 10-13 at Pg ID 1410-11.) The trial court
denied the request to play the additional twenty-four seconds of the recording
because, in the court's opinion, the comment would confuse the jury, rather than
illuminate Theriot's remarks, and because Theriot was planning to testify anyway.

(Id. at 17, Pg ID 1412.)
The prosecution introduced a third jailhouse phone recording in which
Theriot advised his brother James Theriot "to take the Fifth all the way." (See
28

Pet. App. 35a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2517 Filed 12/20/19 Page 29 of 37

12/1/11 Trial Tr. at 137, ECF No. 10-11 at Pg ID 1156; 12/6/11 Trial Tr. at 5, ECF
No. 10-13 at Pg ID 1400.) Defense counsel wanted to introduce an earlier
conversation where Theriot's and James' mother said that she planned to
encourage James to plead the Fifth Amendment because the police were trying to
use James against Theriot. Defense counsel wanted to introduce an additional
recording to show that Theriot was trying to protect James from a threat or a scare
tactic by the police, not because Theriot was trying to protect himself. (12/6/11
Trial Tr. at 5-10, ECF No. 10-13 at Pg ID 1400-1405.) The trial court denied
defense counsel's request on grounds that (i) it did not give any context to the
evidence already in evidence, (ii) Theriot could have cross-examined James about
the matter, (iii) Theriot could explain his phone conversation in his future
testimony, and (iv) the proffered evidence would create more confusion than
illumination. (Id.)
The trial court opined that defense counsel's arguments were undermined by
the fact that Theriot was in the process of testifying and he could explain what he
meant by his prior statements when he testified without introducing self-serving
hearsay. (Id. at 13-14, Pg ID 1408-09.) The court ruled that defense counsel could
only ask Theriot to explain his prior conversations, which were already in
evidence. (Id. at 14, Pg ID 1409.)
29
Pet. App. 36a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2518 Filed 12/20/19 Page 30 of 37

The Michigan Court of Appeals upheld the trial court's rulings. Theriot,
2013 WL 6703494, at *5-6. The court reasoned that playing additional excerpts of
the recordings, apart from the original statements, would cause confusion and that
Theriot was trying to rebut the implication of guilt by providing alternative
explanations for his previous comments, rather than context for the statements. Id.
The court rejected Theriot's constitutional argument on the basis that he had a
meaningful opportunity to present a complete defense by testifying. Id.
In his habeas petition, Theriot claims that the excerpts he attempted to
introduce should have been admitted in evidence under Michigan's rule of
completeness and to provide context to the excerpts the prosecutor introduced.
Theriot maintains that his proffered excerpts: µndercut the prosecution's theory by
providing alternative explanations for his statements; supported his theory that
Matthews, and not Theriot, made bad decisions on the night of the crimes; show he
was upset with Hudson because she was not truthful, not because she went to the
police; and demonstrate that he was not encouraging his brother James to be
evasive, but was trying instead to prevent James from exposing himself to criminal
liability for perjury or something else. According to Theriot, without the
additional excerpts he wanted to introduce, he was forced to ask the jury to take his
word for what the phone conversations meant.
30

Pet. App. 37a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2519 Filed 12/20/19 Page 31 of 37

To the extent the trial court may have violated a Michigan rule of evidence,
Theriot's claim is not cognizable on federal habeas review. Hall, 563 F.3d at 239.
Even if cognizable, the state court determined that Theriot's proffered evidence
was not admissible under the "rule of completeness," and the state court's
interpretation of state law binds this Court on habeas review. Bradshaw v. Richey,
546 U.S. 74, 76 (2005). Furthermore, rules of completeness are "not designed to
make something admissible that should be excluded." United States v. Costner,
684 F.3d 370, 373 (6th Cir. 1982) (interpreting Fed. R. Evid. 106, which is similar
to Michigan Rule of Evidence 106). Finally, the late introduction of the additional
evidence could have confused the jury.
Additionally, the Court cannot find that, the state court unreasonably applied
clearly established federal law when ruling that Petitioner had alternative avenues
to put the jailhouse calls in context, including his own testimony. United States v.
Kerley, 784 F.3d 327, 343 (6th Cir. 2015) (citing Reichert, 747 F.3d at 454). In

fact, during his trial testimony, Theriot was able to provide an explanation for the
comments that the prosecutor introduced through the jailhouse phone recordings.
(See 12/6/11 Trial Tr. at 27, ECF No. 10-13 at Pg ID 1422 (explaining what he had

meant when he talked with Stewart about Hudson going to the police and being
"on some bullshit"); id. at27-29, Pg ID 1422-24 (explaining that he told his
31
Pet. App. 38a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2520 Filed 12/20/19 Page 32 of 37

brother James to "take the Fifth all the way" because he did not want James to
continue lying on the stand and perjure himself); id. at 29-30, Pg ID 1424-25
(explaining that when he told people that he did not have anything to do with the
shooting, he meant that he wanted everyone to tell the truth to his lawyer and the
police).) Therefore, he was not deprived of his right to present a complete defense

by the trial court's evidentiary ruling. Reichert, 747 F.3d at 454.
The Court concludes that the state trial court's evidentiary ruling and
exclusion of evidence did not deprive Theriot of his right to present a defense or

his right to a fair trial. Further, the state appellate court's conclusion that Theriot's
right to present a defense was not violated was neither contrary to, nor an
unreasonable application of, Supreme Court precedent. Theriot is not entitled to
relief on his claim.

C. The Sentence and Trial Counsel's Failure to Object
In his third and final claim, Theriot challenges the scoring of offense
variable five of the Michigan sentencing guidelines. He contends that the fifteen
points he received for offense variable five placed him in a higher guidelines range
despite the lack of evidentiary support for the score and that his trial attorney was
ineffective for failing to object to the score.

32

Pet. App. 39a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2521 Filed 12/20/19 Page 33 of 37

The Michigan Court of Appeals reviewed Theriot' s claim following his resentencing. It reviewed the claim for plain error because Theriot did not preserve
the claim for appellate review by raising it at sentencing, in a motion for resentencing, or in a motion to remand. Analyzing the claim, the Court of Appeals
concluded that the trial court did not plainly err when it scored fifteen points for
offense variable five and that trial counsel was not ineffective for failing to object
to the score.
Respondent has not asserted that Theriot's sentencing claim is procedurally
defaulted. (See Supplemental Answer in Opp'n to Pet. for Writ of Habeas Corpus,
at 3, ECF No. 26 at Pg ID 234 7.) Instead, Respondent argues that the claim lacks
merit.
The Court understands Theriot to be raising two interrelated claims: ( 1) the
sentencing guidelines were mis-scored; and, (2) trial counsel was ineffective for
failing to object to the scoring of the guidelines. The contention that the
sentencing guidelines were mis-scored is not a cognizable claim on habeas review
because a challenge to the state court's application and interpretation of state
sentencing guidelines is ''a matter of state concern only," Howard v. White, 76 F.
App'x 52, 53 (6th Cir. 2003), and "[a] federal court may not issue the writ on the
basis of a perceived error of state law." Pulley v. Harris, 465 U.S. 37, 41 (1984).
33
Pet. App. 40a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2522 Filed 12/20/19 Page 34 of 37

Theriot nevertheless contends that he was sentenced on inaccurate
information and that his trial attorney violated his Sixth Amendment right to the
effective assistance of counsel. A sentence based on extensively and materially
false information, which the defendant had no opportunity to challenge, violates
due process. Townsendv. Burke, 334 U.S. 736, 741 (1948). Further, an attorney
violates the constitutional guarantee of effective assistance if the attorney's
performance was deficient and the deficient performance prejudiced the defense.
Stricklandv. Washington, 466 U.S. 668,687 (1984). The Court, however, finds
that the trial court did not rely on extensively and materially false information, and
that trial counsel was not ineffective for failing to object to the scoring of offense
variable five.
Offense variable five "is psychological injury to a member of a victim's
family." Mich. Comp. Laws§ 777.35(1). Fifteen points is an appropriate score if
"[s]erious psychological injury requiring professional treatment occurred to a
victim's family." Mich. Comp. Laws§ 777.35(1)(a). A score of zero is proper if
"[n]o serious psychological injury requiring professional treatment occurred to a
victim's family." Mich. Comp. Laws§ 777.35(1)(b).
According to Theriot, the assessment of fifteen points for offense variable
fifteen was without support in the state presentencing report and in the lower court
34

Pet. App. 41 a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2523 Filed 12/20/19 Page 35 of 37

record. However, at Theriot's initial sentencing, the prosecutor stated that the
murder victim's mother, Ronnette Dukes, had contacted a victim's advocate
because she lived in Alabama and could not attend Theriot's sentencing. (See
1/4/12 Sentencing Tr. at 14, ECF No. 10-15 at Pg ID 1639.) Ms. Dukes reported to
tlie victim's advocate that "the whole situation was very stressful for her" and that
the loss of her unborn grandchild and not being able to get to know the grandchild
was "extremely hard for her." (Id.) She also reported that she had been in
counseling. Id.
Ms. Dukes' comments demonstrate that serious psychological injury
requiring professional treatment occurred to a member of the victim's family.
Therefore, the trial court did not sentence Theriot on the basis of extensively and
materially false information, and trial counsel was not ineffective for failing to
object to the scoring of offense variable five. An objection would have lacked
merit, and "[o]mitting meritless arguments is neither professionally unreasonable
nor prejudicial." Coley v. Bagley, 706 F.3d 741, 752 (6th Cir. 2013).
The state appellate court's decision affirming Theriot's sentence and
rejecting his ineffectiveness claim was not contrary to Supreme Court precedent.
Therefore, habeas relief is not warranted on Theriot's sentencing claim.

35

Pet. App. 42a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2524 Filed 12/20/19 Page 36 of 37

IV. Certificate of Appealability

"[A] prisoner seeking postconviction relief under 28 U.S.C. § 2254 has no
automatic right to appeal a district court's denial or dismissal of the petition.
Instead, [the] petitioner must first seek and obtain a [certificate of appealability. ]"

Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
A certificate of appealability may issue "only if the applicant has
made a substantial showing of the denial of a constitutional right."
§ 2253(c)(2). That standard is met when "reasonable jurists could
debate whether (or, for that matter, agree that) the petition should
have been resolved in a different manner." Slack v. McDaniel, 529
U.S. 473, 484, 120 S.Ct. 1595, 146 L.Ed.2d 542 (2000). Obtaining a
certificate of appealability "does not require a showing that the appeal
will succeed," and "a court of appeals should not decline the
application ... merely because it believes the applicant will not
demonstrate an entitlement to relief." Miller-El v. Cockrell, 537 U.S.
322,337, 123 S.Ct. 1029, 154 L.Ed.2d 931 (2003).

Welch v. United States, 136 S. Ct. 1257, 1263-64 (2016).
Reasonable jurists could debate the Court's resolution ofTheriot's first
claim regarding his right of confrontation and his right to present a defense.
Reasonable jurists also could debate Theriot's claim regarding the exclusion of the
recordings from his jailhouse phone calls. Reasonable jurists, however, could not
debate the Court's assessment ofTheriot's claim regarding his sentence.
Therefore, the Court will grant in part and deny in part a certificate of
appealability.
36
Pet. App. 43a

Case 4:15-cv-13679-LVP-RSW ECF No. 30, PagelD.2525 Filed 12/20/19 Page 37 of 37

V. Conclusion and Order
The state appellate court's adjudication ofTheriot's claims was neither
contrary to clearly established federal law, an unreasonable application of clearly
established federal law, nor an unreasonable determination of the facts.
Accordingly,

IT IS ORDERED that Theriot's amended petitions for the writ of habeas
corpus (ECF Nos. 21 and 23) are denied.
IT IS FURTHER ORDERED that a certificate of appealability may issue
on claims one and two only.

IT IS FURTHER ORDERED that Theriot may proceed in forma pauperis
if he appeals this decision.
s/ Linda V. Parker
LINDA V.PARKER
U.S. DISTRICT JUDGE
Dated: December 20, 2019

37
Pet. App. 44a

Case: 20-1029

Document: 23-2

Filed: 01-/07/2021

Page: 1

Case No. 20-1029

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
DARIUS THERIOT
Petitioner - Appellant

v.
BOB VASHAW, Warden
Respondent - Appellee

BEFORE: BATCHELDER, Circuit Judge; GRIFFIN, Circuit Judge; MURPHY, Circuit
Judge;
Upon consideration of the petition for rehearing filed by the Appellant,
It is ORDERED that the petition for rehearing be, 'and it hereby is, DENIED.
ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

Issued: January 07, 2021

dJ.~~

Pet. App. 45a

Order

Michigan Supreme Court
Lansing, Michigan

July 29, 2014

RobertP. Young,Jr.,
Chief Justice

148725

Michael F. Cavanagh
Stephen J. Markman
Mary Beth Kelly
Brian K. Zahra
Bridget M. McCormack
David F. Viviano,

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

Justices

SC: 148725
COA: 308640
Wayne CC: 11-008423-FC

V

DARIUS REECE THERIOT,
Defendant-Appellant.

--------------------I
On order of the Court, the application for leave to appeal the December 19, 2013
judgment of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.

July 29, 2014
t0721

Pet. App. 46a
Clerk

STATE OF MICHIGAN
COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

UNPUBLISHED
December 19, 2013

Plaintiff-Appellee,
No. 308369
Wayne Circuit Court
LC No. 11-008423-FC

V

DEVON RAYMON MATTHEWS,
Defendant-Appellant.

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
No. 308640
Wayne Circuit Court
LC No. 11-008423-FC

V

DARIUS REECE THERIOT,
Defendant-Appellant.

Before: OWENS, P.J., and JANSEN and HOEKSTRA, JJ.
PERCURIAM.
This matter involves a consolidated criminal appeal from the circuit court. In Docket No.
308369, defendant Devon Matthews appeals as of right from his bench trial convictions of one
count of second-degree murder, MCL 750.317, three counts of assault with intent to do great
bodily harm less than murder, MCL 750.84(1)(a), one count of felon in possession of a firearm
(felon in possession), MCL 750.224f, and one count of possession of a firearm during the
commission of a felony (felony-firearm), MCL 750.227b. He was sentenced to concurrent
prison tenns of30 to 35 years for the second-degree-murder conviction, 5 to 10 years for each of
the assault-with-intent-to-do-great-bodily-harm convictions, and 2 to 5 years for the felon-inpossession conviction, and to a consecutive prison term of 2 .years for the felony-firearm
conviction. We affirm defendant Matthews's sentence.

In Docket No. 308640, defendant Darius Theriot appeals as of right from his jury trial
convictions of one count of second-degree murder, MCL 750.317, three counts of assault with
intent to commit murder, MCL 750.83, one count of assault of a pregnant individual causing
-1-

Pet. App. 47a

death to fetus, MCL 750.90b(a), and one count of felony-firearm, MCL 750.227b. He was
sentenced as a second-offense habitual offender to concurrent prison terms of 45 to 80 years for
the second-degree-murder conviction and each of the assault-with-intent-to-murder-convictions,
and 10 to 15 years for the assault-causing-death-to-fetus conviction, and to a consecutive prison
term of 2 years for the felony-firearm conviction. We affirm defendant Theriot's convictions,
but we vacate his sentence and remand for resentencing.
This case arises from a drive by shooting. Defendant Theriot drove the vehicle from
which defendant Matthews shot an AK-47, killing a pregnant woman and injuring three others.

I. DOCKET NO. 308369
Defendant Matthews argues that the information in the presentence investigation report
(PSIR) did not support a score of 15 points for OV 5, and thus, he is entitled to resentencing for
his second-degree-murder conviction. We disagree.
We review for clear error the trial court's factual fmdings that serious psychological
injury requiring professional treatment occurred to the victim's mother. People v Hardy, 494
Mich 430, 438; 835 NW2d 340 (2013). We review de novo whether these findings were
sufficient to assess 15 points for OV 5. Id The trial court's factual findings must be supported
be a preponderance of the evidence. Id
The trial court must assess 15 points for OV 5 if"[s]erious psychological injury requiring
professional treatment occurred to a victim's family." MCL 777.35(1)(a). The fact that
professional treatment has not been sought is not conclusive. MCL 777.35(2). A trial court must
assess 15 points "if the serious psychological injury to the victim's family may require
professional treatment." Id. (emphasis added).
The trial court did not clearly err when it determined that the victim's mother suffered
psychological injury that may require professional treatment. Citing People v Portellos, 298
Mich App 431, 441-442, 449; 827 NW2d 725 (2012), defendant argues that the victim's impact
statement only describes the mother's disbelief and grief at the loss of her daughter, which is not
evidence that she suffered a psychological injury requiring counseling. However, the impact
statement also stated that the victim's mother had nqt tried counseling yet, which as the trial
court noted, could be an indication that she was contemplating treatment. Additionally, as the
trial court also noted, the impact statement described more than just natural and ordinary grief
arising from the death of a loved one, particularly because of the nature of the crime.
Accordingly, we conclude that these findings were sufficient to assess 15 points for OV 5.
However, even if we determined that the trial court erred by assessing 15 points for OV
5, defendant is not entitled to resentencing because the scoring error would not alter his
appropriate guidelines range. See People v Francisco, 474 Mich 82, 89 n 8; 711 NW2d 44
(2006).
-

-2-

Pet. App. 48a

II. DOCK.ET NO. 308640
A. NONASSERTIVE CONDUCT
First, defendant Theriot argues that the trial court abused its discretion by prohibiting
defendant Theriot from asking any of the witnesses about his demeanor immediately after the
shooting. We agree, but because the error was harmless, we find that defendant is not entitled to
relief.
A trial court's decision to admit or exclude evidence is reviewed for an abuse of
discretion. People v Herndon, 246 Mich App 371,406; 633 NW2d 376 (2001). However, to the
extent defendant Theriot argues that the trial court's ruling violated his constitutional right to
present a defense, that argument is unpreserved, as an objection based on the rules of evidence
does not preserve the issue of whether the exclusion violated a constitutional right, and thus, we
review it for plain error affecting substantial rights. See People v Coy, 258 Mich App 1, 12; 669
NW2d 831 (2003)
Defendant Theriot argues that any testimony regarding his nonverbal behavior and
demeanor was admissible as nonassertive conduct. Defendant Theriot argues that his reaction to
the shooting, whether by his sudden silence, erratic driving, or body language, was not a
statement for hearsay purposes. 1 Defendant Theriot also argues that his statement ''what the hell
was that?" made immediately after the shooting was not hearsay because it was not assertive or
offered for the truth of the matter asserted, and thus was admissible. At trial, the trial court
prohibited defendant Theriot from admitting into evidence any witnesses' observations of his
reaction to the shooting. The trial court determined th.at evidence of defendant Theriot's reaction
to the shooting contained an implied assertion, making it hearsay.
MRE 801 (c) defines hearsay as "a statement, other than one made by the declarant while
testifying at the trial Ol' hearing, offered in evidence to prove the truth of the matter asserted." "A
'statement' is (1) an oral or written assertion or (2) nonverbal conduct of a person, if it is
intended by the person as an assertion." MRE 80l(a). Quoting 2 McCormick on Evidence· (4th
ed), § 250, pp 110-111, this Court explained the rationale for excluding nonassertive conduct
from the definition of hearsay:

1 Defendant

Theriot asserts that he was prohibited from cross-examining a witness about whether
defendant Theriot exhibited ·anger with defendant Matthews after the shooting, as opposed to
nonchalance. However, in his argument section, defendant Theriot fails to specifically address
how the trial court erred in this regard. Thus, to the extent that defendant Theriot argues thatthe
trial court erred by prohibiting him from cross-examining the witness about defendant Theriot' s
anger, this issue is abandoned. See People v Harris, 261 Mich App 44, 50; 680 NW2d 17 (2004)
("An appellant's failure to properly address the merits of his assertion of error constitutes
abandonment of the issue.").

-3Pet. App. 49a

People do not, prior to raising their umbrellas, say to themselves in
soliloquy form, "It is raining," nor does the motorist go forward on the green light
only after making an inward assertion, "The light is green." The conduct offered
in the one instance to prove it was raining and in the other that the light was
green, involves no intent to communicate the act sought to be proved, and it was
recognized· long ago that purposeful deception is less likely in the absence of
intent to communicate. [People v Jones (On Rehearing After Remand), 228 Mich
App 191, 214; 579 NW2d 82, mod in part on other grounds 458 Mich 862
(1998).]
The key determination is whether an assertion was intended. People v Watts, 145 Mich App
760, 762; 378 NW2d 787 (1985). Behavior that is "so patently involuntary" such as the
"spontaneous act of crying" cannot be treated as an assertion. People v Davis, 139 Mich App
811,813; 363 NW2d 35 (1984).
Reactions to a shooting are likely spontaneous outbursts, and thus, "so patently
involuntary" that they could not be intended assertions. Defendant Theriot's display of surprise,
anger, silence, and erratic driving were likely involuntary reactions to the shooting, and they do
not indicate that he had an "intent to communicate the act sought to be proved." Thus, defendant
Theriot should have been permitted to ask questions regarding his demeanor following the
shooting, so long as the conduct involved was involuntary and spontaneous, and not intended as
an assertion. Accordingly, the trial court erred in this regard.
Likewise, defendant Theriot's question "what the hell was that?" made after the shooting
was not hearsay. As stated, to qualify as hearsay, the "statement" must be an "assertion".
Defendant Theriot's question is incapable of being true or false, and thus, is not an assertion.
Jones (On Rehearing After Remand), 228 Mich App at 204-205; see also United States v
Thomas, 451 F3d 543, 548 (CA 8, 2006) (stating that "[q]uestions and commands generally are
not intended assertions, and therefore cannot constitute hearsay"). Even if the question could
qualify as an assertion, the question was not offered to prove the matter asserted, i.e., what
something was. Rather, the question was offered to show that defendant Theriot was surprised
the shooting occurred. Although, as the trial.court suggested, there may be an implied assertion
that defendant Theriot is innocent of being an aider and abettor because he did not know there
was going to be a shooting, this Court has stated that implied assertions are not hearsay. Jones
(On Rehearing After Remand), 228 Mich App at 225-226. Thus, the trial court erred in
excluding this evidence.2

2

Plaintiff argues that defendant Theriot may not offer his own exculpatory statement because it
is self-serving. See e.g., People v Taylor, 98 Mich App 685, 690; 296 NW2d 631 (1980) ("An
exculpatory statement by a defendant made after his arrest is properly excluded at trial as selfserving."). The self-serving line of cases is distinguishable because they concern a defendant
offering his or her own statements, and not another witness testifying about defendant's conduct.
They are also distinguishable because in the present case the conduct occurred before the arrest,
as opposed to after the defendant was arrested and Mirandized.

-4-

Pet. App. 50a

However, although the trial court erred, in light of the overwhelming evidence against
defendant Theriot, the error was harmless, and thus, he is not entitled to relief. MCR 2.613(A).
Defendant Theriot admitted to getting the gun, which he illegally owned, of his own. free will.
One witness testified that defendant Theriot made the decisions on where to go that night, and he
intentionally drove his truck to the house and slowed down when he drove by it. Defendant
Theriot was quoted as saying, "don't worry about it, we'll get them later, we'll take care of it in
our own time," after four men associated with the victims had confronted defendant Theriot and
his friends. After the shooting, defendant Theriot wiped the gm,. clean of prints, and he was the
last person.seen with the gun. He also urged witnesses not to snitch and to lie for him. Further,
given that the jury heard testimony that defendant Theriot was scared after the shooting,
particularly because he stepped on the gas and jerked the truck, it is unlikely that hearing he was
surprised would have changed the verdict.
Additionally, defendant Theriot argues the trial court's rulings denied him his right to
present a defense. "[A] criminal defendant has a state and federal constitutional right to present
a defense," but this right is not absolute. People v Hayes, 421 Mich 271, 278-279; 364 NW2d
635 (1984). The Sixth Amendment only grants criminal defendants '"a meaningful opportunity
to present a complete defense." Holmes v South Carolina, 547 US 319,324; 126 S Ct 1727; 164
L Ed 2d 503 (2006) (quotation marks and citation omitted) (emphasis added). As noted, the trial
court's evidentiary error was harmless, and as such, it did not rise to the level of a constitutional
deprivation. Defendant Theriot was not precluded from presenting a complete defense because
there was testimony showing that he was scared after the shooting based on how he sped off and
jerked the truck. Defendant Theriot was also able to ask the witnesses whether anyone
encouraged defendant Theriot to get the gun and drive by the house, and whether defendant
Theriot ordered _or encouraged defendant Matthews to shoot. Accordingly, defendant Theriot
had a meaningful opportunity to present a defense. 3

.

B. RULE OF COMPLETENESS
Next, defendant Theriot argues that the trial court erred by denying his request to admit
additional excerpts of recorded jail phone conversations between him and his friend and mother.
We disagree. As stated, a trial court's decision to admit or exclude evidence is reviewed for an
abuse of discretion. Herndon, 246 Mich App at 406. However, to the extent that defendant
Theriot argues that the exclusion of the additional excerpts violated his constitutional right to
present a defense, that issue is unpreserved, and thus, we review for plain error. Coy, 258 Mich
App at 12.
The common law ''rule of completeness" was codified in MRE 106, which. provides,
"When a writing or recorded statement or part thereof is introduced by a party, an adverse party
may require the introduction at that time of any other part or any other writing or recorded
statement which ought in fairness to be considered contemporaneously with it." "The premise of

Defendant Theriot states that he also enjoys a right to confront the witnesses against him, but
makes no argument on how he was denied this right. Thus, it is considered abandoned. See
Harris, 261 Mich App at 50.

3

-5Pet. App. 51 a

I
L.-

the rule is that a thought or act cannot be accurately understood without considering the entire
context and content in which the thought was expressed." People v McReavy, 436 Mich 197,
214-215; 462 NW2d 1 (1990). Our Supreme Court has stated that "it is essential that prosecutors
and defendants be able to give the jury an intelligible presentation of the full context in which
disputed events took place." People v Sholl, 453 Mich 730, 741; 556 NW2d 851 (1996)~).
The trial court did not err by refusing to play the additional excerpts. Defendant Theriot
stipulated to the admission of the recorded jail calls, and he did not move to have the additional
excerpts played at the time the prosecution played the other portions of the tapes. Instead,
defendant .Theriot waited until the last day of trial to request the admission of the additional
excerpts. MRE 106 clearly states that ''the adverse party may require the introduction at that
time of any other part ... which ought in fairness to be considered contemporaneously with it."
Contrary to what the rules requires, defendant Theriot failed to move for the introduction of the
other parts of the recorded statements at the time the prosecution introduced them, so they could
be played at the same time. Playing the additional excerpts, some of which were only seconds
long, apart from the original statements, would likely cause confusion, as the trial court correctly
determined.
Further, the trial court allowed defense counsel to inquire about the context of the
statements on direct examination, where defendant Theriot was able to explain why he said what
he said. This Court has noted that allowing a defendant to explain his statements rather than
playing a recording that was not relevant except for the portion that the jury heard, has "the
potential to be more compelling evidence in favor of the defense than the tape itself." Herndon,
246 Mich App at 409. Defendant Theriot has failed to explain how the additional excerpts were
relevant, i.e., how they would offer context for the other statements. Defendant Theriot sought to
admit his own statements, not to offer context or to make the statements complete, but to rebut
any implication of guilt by providing alternative explanations for the statements. And, as
discussed, defendant Theriot was able to do this during his direct examination, which still
provided the jury with an "intelligible presentation of the full context in which disputed events
took place." Sholl, 453 Mich at 741. Accordingly, given that MRE 106 is a discretionary rule,
People v Fackelman, 489 Mich 515, 545 n 22; 802 NW2d 552 (2011), we find no evidentiary
error.
Additionally, defendant Theriot asserts that the trial court's ruling violated his right to
present a defense. As discussed in Issue II, the Sixth Amendment only grants criminal
defendants "a meaningful opportunity to present a complete defense." Holmes, 547 US at 324
(quotation marks and citation omitted) (emphasis added). "It is well settled that the right to
assert a defense may permissibly be limited by 'established rules, of procedure and evidence
designed to assure both fairness and reliability in the ascertainment of guilt and innocence."'
People v Toma, 462 Mich 281, 294; 613 NW2d 694 (2000), quoting Chambers v Mississippi,
410 US 284, 302; 93 S Ct 1038, 35 L Ed 2d 297 (1973). "The Michigan Rules of Evidence do
not infringe on a defendant's constitutional right to present a defense unless they are 'arbitrary'
or 'disproportionate to the purposes they are designed to serve."' People v King, 297 Mich App
465, 474; 824 NW2d 258 (2012), quoting United States v Scheffer, 523 US 303, 308; 118 S Ct
1261; 140 L Ed 2d 413 (1998) (opinion by Thomas, J.).

-6Pet. App. 52a

As discussed, pursuant to MRE 106, the trial court properly excluded the additional
excerpts, and thus defendant Theriot was not denied his constitutional right to present a defense.
See Hayes, 421 Mich at 278. Moreover, defendant Theriot had a meaningful opportunity to
present a complete defense, as he was able to provide an explanation about his statements during
his direct examination, which had the potential to be more compelling than listening to a few
seconds of a recording. Finally, defendant Theriot fails to argue that MRE 106 is arbitrary or
disproportionate to the purpose it was designed to serve; thus, in this respect, this issue is
abandoned. See King, 297 Mich App at 474. Accordingly, we find no constitutional error.
C. HABITUAL OFFENDER SENTENCE
Next, defendant Theriot argues, and the prosecutor agrees, that the trial court erred in
sentencing him as a second-offense habitual offender. We agree. A trial court's decision to
enhance a defendant's sentence under the habitual offender statutes is reviewed for an abuse of
discretion. People v Mack, 265 Mich App 122, 125; 695 NW2d 342 (2005).
Defendant Theriot argues that he cannot be sentenced as a second-offense habitual
offender because the prosecutor failed to provide him with a notice of intent to seek an enhanced
sentence. If a prosecutor wishes to seek an enhanced sentence, the prosecutor must file a written
notice of intent within 21 days of the defendant's arraignment, or if the arraignment is waived,
within 21 days of the filing of the information. MCL 769.13(1); MCR 6.l 12(F). Here, the
prosecutor concedes that defendant Theriot was not provided with a notice of intent to seek an
enhanced sentence. Thus, defendant Theriot should not have been sentenced as a second-offense
habitual offender.
Additionally, defendant Theriot argues that he cannot be sentenced as a second-offense
habitual offender because he did not have a prior felony conviction for purposes of habitual
offender sentencing. The second-offense-habitual-offender statute, MCL 769.10(1), provides:

If a person has been convicted of a felony or an attempt to commit a
felony . . . and that person commits a subsequent felony within this state, the
person shall be punished upon conviction of the subsequent felony ....
Thus, the statute requires the defendant to have been convicted of an offense before the
commission of the sentencing offense. "An assignment to youthful trainee status does not
constitute a conviction of a crime unless the court revokes the defendant's status as a youthful
trainee." People v Dipiazza, 286 Mich App 137, 141-142; 778 NW2d 264 (2009), citing MCL
762.12. Here, the parties concede that defendant Theriot's HYTA status was revoked after the
jury convicted him in this case, so at the time defendant Theriot committed the sentencing
offense, he did not have a prior felony conviction for purposes of habitual offender sentencing.
Thus, defendant Theriot should not have been sentenced as a second-offense habitual offender.
Accordingly, we remand for resentencing.
D. JUDICIAL BIAS
Finally, defendant Theriot argues that he should be resentenced before a new trial judge.
We disagree. To determine whether a different trial judge should resentence a defendant, this
Court applies the following test:

-7Pet. App. 53a

(1) whether the original judge would reasonably be expected upon remand
to have substantial difficulty in putting· out of his or her mind previouslyexpressed views or findings determined to be erroneous or based on evidence that
must be rejected, (2) whether reassignment is advisable to preserve the
appearance of justice, and (3) whether reassignment would entail waste and
duplication out of proportion to any gain in preserving the appearance of fairness.
[People v Hill, 221 Mich App 391, 398; 561 NW2d 862 (1997) (quotation marks
and citations omitted).
·
Here, the trial judge did not make any comments on the record indicating that he was
biased. The trial judge may have vigorously expressed his views, but only out of :frustration with
defendant Theriot' s actions in that he attempted to coach witnesses, frequently interrupted the
proceedings, and tried to run the trial over his attorney. Additionally, even though some of the
trial court's rulings were erroneous, this is not enough to demonstrate bias. See Bayati v Bayati,
264 Mich App 595, 603; 691 NW2d 812 (2004) ("Repeated rulings against a party, no matter
how erroneous, or vigorously or consistently expressed, are not disqualifying."). Given the
length of the trial and the amount of testimony heard, reassigning this matter to a different judge,
who knows nothing about the case, would entail waste, particularly when there is no indication
that the trial judge would not be able to resentence defendant Theriot fairly.

III. CONCLUSION
In Docket No. 308369, we affirm defendant Matthews's sentence. In Docket No.
308640, we affirm defendant Theriot's convictions, but vacate his sentence and remand for
resentencing. We do not retain jurisdiction.

Isl Donald S. Owens
Isl Kathleen Jansen
Isl Joel P. Hoekstra

-8Pet. App. 54a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-9, Page1D.5Sl Filed 04/26/16 Page 1 of 207

STATE OF MICHIGAN

1

2

THIRD JUDICIAL CIRCUIT COURT - CRIMINAL DIVISION

3

4
5

6

THE PEOPLE OF THE STATE OF MICHIGAN,
File No. 11-8423

V

DEVON MATTHEWS and DARIUS THERIOT,
Defendant.

7
8

________________/

9

10
11

12

WAIVER TRIAL/JURY TRIAL
BEFORE THE HONORABLE MICHAEL M. HATHAWAY
Detroit, Michigan - November 29, 2011

13
APPEARANCES:
14
For the People:
15
16
17

LISA D. LINDSEY, ATTY. (P39570)
NICOLE K. BROWN, ATTY. (P72769)
Assistant Prosecuting Attorney
1441 St. Antoine
Detroit, Michigan 48226
313-22"4-5777

18
19

For Defendant Matthews:

ROBERT W. PLUMPE, ATTY.
3200 E. 12 Mile Rd.
Suite 108
Warren, Michigan 48092
313-882-1630

For Defendant Theriot:

SANFORD A. SCHULMAN, ATTY.
500 Griswold St.
Suite 2340
Detroit, Michigan 48226
313-963-4740

20
21

(P22065)

22
23
24
25

1

Pet. App. 55a

(P43230)

Case 4:15-cv-13679-LVP-RSW ECF No. 10-9, Page1D.65G Filed 04/26/16 Page 70 of 207

1

Q

2

Sooner or later it's gon' catch up with us and when it
does, don't say anything, correct?

3

A

No.

4

Q

Oh, basically just tell the truth?

5

A

Yes.

6

Q

Who said basically just tell the truth?

7

Basically just tell the truth.

Tell the truth.

Did Darius say if it -- when it finally catches

8

up with us, please tell the truth?

9

A

No.

10

Q

Okay.

Did Darius say that?

Thank you.
So who said when it finally catches up with us,

11

12

please tell the truth?

13

A

Everybody in the, in the immediate circle.

14

Q

Everybody said, yeah, when it finally catches up with

15

us, we're going to be totally honest?

16

A

Yes.

17

Q

Okay.

18

A

Um, nah, it was nonchalant.

19

Q

You said he was nonchalant about the --

20

A

Yes.

21

Q

-- whole thing?

22

We have no choice but to.
What as Darius' demeanor during that next day?

Correct?

23

A

Yes.

24

Q

And you specifically told him if anyone came to you, you

25

said you would tell the truth; is that correct?

70

Pet. App. 56a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-9, Page!D.664 Filed 04/26/16 Page 84 of 207

1

vehicle, where?

2

A

Unknown.

3

Q

Pardon?

4

A

Unknown.

5

Q

You know?

6

A

Unknown.

7

THE COURT:

8

THE WITNESS:

9

MR. SCHULMAN:

10

THE COURT:

11

BY MR. SCHULMAN:

12

Q

13

Unknown, is that what you said?
Yes.
Okay.

Okay.

And what, did you have a reaction from the other people
in your vehicle when you heard the shots?

14

A

Not that I know of.

15

Q

Now, after you drove away did you see Darius Theriot

16
17

react to the what happened in that shooting?
A

I was

at the moment I wasn't focused on around me

18

because I,

19

my shoulder.

So wouldn't -- after, after that I didn't

20

see nothing.

I was tending to him because I didn't want

21

him it throw up on me.

22
23
24

25

Q

Okay.

like I said, I had an intoxicated person on

Do you remember any -- do you remember Darius

being angry at anybody about the occurrence?
MS. LINDSEY:

Objection.

speculation on his part.

84

Pet. App. 57a

That would call for

Case 4:15-cv-13679-LVP-RSW ECF No. 10-9, PagelD.665 Filed 04/26/16 Page 85 of 207

1

MR. SCHULMAN:

2

MS. LINDSEY:

3

THE COURT:

Well.
Angry at anybody.

Yes.

I agree.

I mean and, and if

4

you're ask -- actually asking for words that Mr. Theriot

5

might have spoken or nonverbal assertions, that could

6

get into a hearsay?

7

MR. SCHULMAN:

Well, the preposition the People

opened the door.

8

THE COURT:

9

I don't think so.

And, of course,

10

they have options about the defendant's assertions that

11

you don't have.

12

BY MR. SCHULMAN:

13

Q

So I ' l l sustain the objection.

Did anytime did you ever hear anybody instruct another

14

individual about a firearm,

15

like that?

to use it, shoot, anything

16

A

No.

17

Q

Did you ever hear anyone give any direction on

18

encouragement to anybody?

19

A

No.

20

Q

Did you ever hear anybody say now or like that to

21

give

22

A

No.

23

Q

Did you ever hear anyone say all right this is the spot,

24

25

anything like that?
A

No.

85

Pet. App. 58a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-10, PagelD.788 Filed 04/26/16 Page 1 of 232

STATE OF MICHIGAN

1

THIRD JUDICIAL CIRCUIT COURT - CRIMINAL DIVISION

2

3

4
5

6

THE PEOPLE OF THE STATE OF MICHIGAN,
File No. 11-8423

V

DEVON MATTHEWS and DARIUS THERIOT,

7
8

Defendant.
________________/

9

10
11

12

WAIVER TRIAL/JURY TRIAL
BEFORE THE HONORABLE MICHAEL M. HATHAWAY
Detroit, Michigan - November 30, 2011

13
APPEARANCES:
14
For the People:
15
16
17

LISA D. LINDSEY, ATTY. (P39570)
NICOLE K. BROWN, ATTY. (P72769)
Assistant Prosecuting Attorney
1441 St. Antoine
Detroit, Michigan 48226
313-224-5777

18
19

For Defendant Matthews:

ROBERT W. PLUMPE, ATTY.
3200 E. 12 Mile Rd.
Suite 108
Warren, Michigan 48092
313-882-1630

For Defendant Theriot:

SOLOMON M. RADNER, ATTY. (P73653)
31780 Telegraph Rd.
Suite 130
Bingham Farms, Michigan 48025
877-723-6375

20
21

(P22065)

22
23
24
25

1

Pet. App. 59a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-10, PagelD.959 Filed 04/26/16 Page 172 of 232

1

Q

2

But you know for a fact that Devon did the shooting; is
that correct?

3

A

Yes, sir.

4

Q

And you know for a fact that Darius did not instruct him

5

to shoot anybody; is that correct?

6

A

Yes, sir.

7

Q

Now, do you know how Darius reacted right after the
bullets were shot, right after the AK47 was shot?

B
9

A

10
11

I remember the car was jerking, sir, so he had to be
scared, too.

Q

I'm not asking you if he was scared.

12

saw how he reacted.

13

car, right?

You said he slammed -- stopped the

14

A

Yeah.

15

Q

So obviously he stopped the car --

16

A

Yes.

17

Q

-- for whatever reason.

18

I'm asking if you

Did you see his body language?

19

he reacted?

20

as how he reacted?

Did you see how

Did you have hear anything he said as far

21

A

Yes, sir.

22

Q

What did you see or hear?

23

A

I heard, I heard him.

24

MS. LINDSEY:

Objection, your Honor.

25

Objection, your Honor.

172

Pet. App. 60a

He can't say what he

Case 4:15-cv-13679-LVP-RSW ECF No. 10-10, PagelD.960 Filed 04/26/16 Page 173 of 232

1

heard.

2

THE COURT:

3

MS. LINDSEY:

4

MR. RADNER:

Well -It's hearsay.
Goes to reaction.

5

say for the matter asserted.

6

reacted to this.

7

THE COURT:

8

MR. RADNER:

9

THE COURT:

Not trying to

I'm trying to get how he

How Darius reacted?
Yeah.
Well, that could be --

10

MR. RADNER:

It just, it --

11

THE COURT:

-- an assertion.

12

MS. LINDSEY:

13

THE COURT:

14

I think I know w~at you're you driving at, and

Yeah.
Verbal or otherwise.

15

under those circumstances actually it would be hearsay

16

because it would be offered for either the truth of the

17

matter asserted verbally or otherwise as an assertion of

18

the defendant's state of mind which is, of course,

19

exculpatory assertion, so I will sustain the objection.

20

MR. RADNER:

21

asking specifically.

22

BY MR. RADNER:

23

Q

Okay.

I'm asking specifically.

Did you see --

24

MS. LINDSEY:

25

THE COURT:

No, no, no.
No, you cannot

173

Pet. App. 61 a

I'm

Case 4:15-cv-13679-LVP-RSW ECF No. 10-10, PagelD.961 Filed 04/26/16 Page 174 of 232

1

MR. RADNER:

2

THE COURT:
waste my time.

3

4

Can we approach, please.
No, you may not approach.

Don't

No hearsay.

None of your client's alleged statements are

5

coming into evidence through this witness while you are

6

questioning this witness.

7

MR. RADNER:

It's excited utterance right after

gunshots.

8

MS. LINDSEY:

9

No, no.

10

MR. RADNER:

11

truth of the matter asserted.

12

THE COURT:

13

It's not being offered for the

You just said excited utterance.

That's what hearsay exception means.

14

MR. RADNER:

15

approach,

I can --

16

THE COURT:

17

MR. RADNER:

18

THE COURT:

19

Also he can -- if we can please

No.
tell you.
The People's objection is

sustained.

20

BY MR. RADNER:

21

Q

Okay.

Do you know how Darius reacted to the shooting?

22

THE COURT:

23

with you about this anymore.

24

about how your client supposedly reacted to the shooting

25

either verbally or otherwise is not coming into

Mr. Radner,

174

Pet. App. 62a

I'm not going to argue

This witness' observation

Case 4:15-cv-13679-LVP-RSW ECF No. 10-10, PagelD.962 Filed 04/26/16 Page 175 of 232

evidence, so stop it and move on.

1

2

BY MR. RADNER:

3

Q

4

How many people in the truck in total when the shooting
took place?

5

A

Six, sir.

6

Q

One last question.

I almost for got to do.

You've been sitting in the witness room pretty

7

much all day, right?

8

9

A

Yes, sir.

10

Q

Please tell the jury what you told me right before we

11

broke for lunch.

12

MS. LINDSEY:

Objection.

That is hearsay.

Out

13

of court statement offered for the truth of the matter

14

asserted.

15

MR. RADNER:

16

THE COURT:

Your Honor.
His testimony, Mr. Radner, his

17

testimony here in court is his testimony in court, not

18

statements that he gave you.

19

those statements.

20

fashion.

And he can't testify at least in that

21

MR. RADNER:

22

THE COURT:

23

He can't testify about

Well, the -Well, but you can't -- you're going

to have to ask the question in some ·other way then.

24

MR. RADNER:

25

MS. LINDSEY:

Okay.
Judge.

175

Pet. App. 63a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1020 Filed 04/26/16 Page 1 of 190

STATE OF MICHIGAN

1

THIRD JUDICIAL CIRCUIT COURT - CRIMINAL DIVISION

2
3

4
5
6

THE PEOPLE OF THE STATE OF MICHIGAN,
File No. 11-8423

V

DEVON MATTHEWS and DARIUS THERIOT,
Defendant.

7
8

___________________ /

9

10
11

12

WAIVER TRIAL/JURY TRIAL
BEFORE THE HONORABLE MICHAEL M. HATHAWAY
Detroit, Michigan - December 1, 2011

13
APPEARANCES:
14
For the People:
15
16
17

LISA D. LINDSEY, ATTY. (P39570)
NICOLE K. BROWN, ATTY. (P72769)
Assistant Prosecuting Attorney
1441 St. Antoine
Detroit, Michigan 48226
313-22"4-5 7 7 7

18
19

For Defendant Matthews:

20
21

ROBERT W. PLUMPE, ATTY.
3200 E. 12 Mile Rd.
Suite 108
Warren, Michigan 48092
313-882-1630

(P22065)

22
For Defendant Theriot:
23
24
25

SOLOMON M. RADNER, ATTY. (P73653)
31780 Telegraph Rd.
Suite 130
Bingham Farms, Michigan 48025
877-723-6375

1

Pet. App. 64a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1025 Filed 04/26/16 Page 6 of 190

1

Detroit, Michigan

2

Thursday, December 1, 2011

3

At 10:04 a.m.

4
THE CLERK:

5

Calling Case 11-8423, Defendant 01,

6

the People versus Devon Matthews and Defendant 02, the

7

People versus Darius Theriot.

8

the court for a bench trial and a jury trial.
MS. LINDSEY:

9

10
11

These matters are before

Good morning, your Honor.

Lisa Lindsey on behalf of the People of the
State of Michigan.

12

MS. BROWN:

13

Nicole Brown appearing on behalf of the People.

14

MR. RADNER:

15

Good morning, your Honor.

Solomon Radner on behalf of

Mr. Theriot.

16

MR. PLUMPE:

17

Robert Plumpe, P22965, on behalf of

18

Good morning, your Honor.

Mr. Matthews.

19

We're ready to proceed.

20

THE COURT:

Okay.

And I guess our jury is all

21

here.

22

It will take me two minutes and we'll get started.

I want to just grab a real quick cup of coffee.

23

Thank you.

24

MS. LINDSEY:

25

MR. RADNER:

Yes, sir.
And, your Hono~, just to let the

6

Pet. App. 65a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1O26 Filed 04/26/16 Page 7 of 190

1

Court know, there's one matter I'd like to address at

2

some point before the jury comes out.

3

THE COURT:

Oh, all right.

4

(At 10:05 a.m., proceedings recessed)

5

(At 10:09 a.m., proceedings resumed)
THE COURT:

6

7

All right.

Court's back in

session.

8

Mr. Radner, what's your issue?•

9

MR. RADNER:

10
11

Judge, I just like to make a

record and at the same time an offer of proof.
Yesterday I tried to ask an eyewitness how

12

Darius reacted and what he said immediately after the

13

AK47 was shot.

14

his words coming in as being hearsay.

15

I didn't think that it was gonna be offered for the

16

truth of the matter asserted.

17

sustained the objection.

18

an excited utterance because it was right after gunshots

19

were fired.

20
21

22

At the time the prosecutor objected to

THE COURT:

I mentioned that

I believe the Court then

I then said that it would be

It would have been an exited

exculpatory utterance.
MR. RADNER:

23

excited utterance.

24

exculpatory, but --

25

THE COURT:

Well, it would have been an
It would have been potentially

Okay.

7

Pet. App. 66a

Go ahead.

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1O27 Filed 04/26/16 Page 8 of 190

1

MR. RADNER:

2

So I think and, of course, I, I can't be

the court rules -- okay.

3

certain with these witnesses because things are, they're

4

kind of -- some of the witnesses aFe back and forth on

5

what they're saying.

6

was going to be something to the effect of what the hell

7

was that and acting surprised.

8

THE COURT:

9

MR. RADNER:

10

I think the answer to the question

Right.
There's no truth asserted in the

statement what the hell was that.

11

THE COURT:

12

MR. RADNER:

13

THE COURT:

Oh, there is.
It's
There the, the assertion with an

14

utterance like that is the assertion is I'm innocent.

15

I'm innocent of being an aider and abettor to a shooting

16

because I didn't know there was going to be a shooting.

17

It's an implied assertion.

18

MR. RADNER:

It is.

It is an implied assertion

19

just as it's possible for body language to be an implied

20

assertion.

Yet --

21

THE COURT:

22

MR. RADNER:

Yeah.
-- to ask and, and this brings up

23

the next point.

24

to the shooting and the Court didn't allow that either.

25

I then asked him how my client reacted

THE COURT:

Right.

8

Pet. App. 67a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1O28 Filed 04/26/16 Page 9 of 190

1

MR. RADNER:

I thought that it was at the time

2

I stated that I -- that it was an excited utterance and

3

also not being offered for the truth of the matter

4

asserted.

5

have been by how he reacted is just asking the witness

6

what he saw, what he perceived and, and how can he --

7

8

And whatever statement the body language may

THE COURT:

And the answer you think would have

been what?
MR. RADNER:

9

I think the answer was gonna be

10

surprised which goes to an essential element of aiding

11

and abetting which is knowledge of the shooting.

12

acted surprised, then

13

THE COURT:

Yeah, but it is just another way to

14

get your client's testimony in through hearsay.

15

is testimony because it's a

16

there's a foundation issue about a witness saying

17

another person, the declarant acted surprised.

18

If he

And it

well, first of all,

I mean how does -- what exactly does he mean or

19

how does he know that.

20

detail I'm not sure the witness is even competent to --

21

would be allowed to testify to that unless he, he, he

22

talked about it in, in greater context.

23

context he provides, the more it does indeed become

24

hearsay.

25

And without getting into more

And the more

It may be nonverbal, but it is an assertion.

9

Pet. App. 68a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1029 Filed 04/26/16 Page 10 of 190

1

It is again evidence of your client's having asserted a

2

lack of knowledge about what the actor was doing, and it

3

is in that respect an assertion of innocence.

4

a denial of committing a crime.

It's like

Hearsay doesn't always have to be verbal as I'm

5
6

sure you know.

7

offered in an -- in the form of a nonverbal assertion,

8

and that's what that he would be.

9

right ruling here.

10

And oftentimes impermissible hearsay is

So I think I made the

Now, you know, if, if the People were asking a

11

witness to testify about an incriminating reaction or

12

words that the defendant made, that would be an entirely

13

different circumstance.

14

admissible.

15

kind of evidence in, it's impermissible hearsay in my

16

view.

17
18

21
22

But when the defense is trying to put that

But, anyway, I think we've said everything we
can about it.

19
20

That would be probably

Ms. Lindsey, do you have anything you wanna
say?
MS. LINDSEY:

No.

I, I think I made a

sufficient record of what's my objection yesterday.

23

MR. RADNER:

24

just to complete the record.

25

that was asked by the defense how did Darius react and

Your Honor,

10

Pet. App. 69a

just one last thing

There was another witness

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1030 Filed 04/26/16 Page 11 of 190

1

the answer was nonchalant.

2

even though the question was how did Darius react, and

3

it was posed by the defense.

4

THE COURT:

5

MR. RADNER:

6

THE COURT:

7

10

Well -That --- nonchalant is sort of

incriminating.

8
9

And that answer was allowed

MR. RADNER:

Yes.

Yes, it is.

him answering that it was he was allowed to answer the
question.

And -THE COURT:

11

You mean there was no objection or

12

there was an objection rather

13

MR. RADNER:

14

THE COURT:

15

MR. RADNER:

16

But prior to

There's no objection then.
-- and I ruled?
There was no objection by, by the

prosecutor.

17

THE COURT:

Well, maybe she knew nonchalant was

18

going to be the answer and so she had no objection to

19

that.

20

MR. RADNER:

21

THE COURT:

Okay.
Nonchalant I would have let in.

If

22

knowing that, knowing that that was the answer, I would

23

let it in because that's incriminating.

24

MR. RADNER:

25

THE COURT:

So.
I mean it may strike you as unfair,

11

Pet. App. 70a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1031 Filed 04/26/16 Page 12 of 190

1

but, you know, in the body of evidence there's always

2

the admissibility or non-admissibility of evidence often

3

depends on who's offering it and, and why it's being

4

offered.

5

expressions, body language or whatever that tends to be

6

incriminating can be admitted.

7

And a, a facial expression or, or words or

And but it wasn't Ms. Lindsey that was asking

8

the questions at that time I don't think.

But the fact

9

that nonchalant came in over without an objection does

10

not in any way open the door if that's the point you're

11

trying to make about being exculpatory body language or

12

expressions.

13

MR. RADNER:

So then just to complete my

14

record, and then we can bring the jury back in if

15

there's nothing else, Rule 083, the following are not

16

excluded by the hearsay rule even though the declarant

17

is available as a witness.

18

Number two, excited utterance.

A statement

19

relating to startling event or condition made while the

20

declarant was under the stress of excitement caused by

21

the event or condition.

22

I don't see anything in here about whether or

23

not it's exculpatory or incriminating.

24

gunshots that were fired just a few feet behind where my

25

client was.

There were

And how he reacted to that if the Court has

12

Pet. App. 71a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1032 Filed 04/26/16 Page 13 of 190

1

already ruled that it is an assertion, I would just make

2

a record that probably is not being offered for the

3

truth of the matter asserted in that body language, but

4

also that it would be considered an excited utterance

5

per 803 paren two.

6

7

THE COURT:

Okay.

So exculpatory excited

utterances.

8

Ms. Lindsey, what do you think about those?

9

MS. LINDSEY:

Well, as it relates to what he

10

just said, he's trying to have it both ways.

11

saying it's not being offered for the truth of the

12

matter asserted; that he's using it under 803.

13

being offered for the truth of the matter asserted.

14

if it is, that is essentially he's trying to put in his

15

client's own statement which he cannot do

16

THE COURT:

17

MS. LINDSEY:

18
19

He's

It is
And

Yeah.
-- because it's not an admission

of a proper -THE COURT:

Yeah.

See, I think the reason why

20

exculpatory excited utterances, I don't mind having

21

these kind of dialogues because these help me, too.

22

I -- this is fine, but there has to be fundamentally

23

with any hearsay that's admitted through an exception a

24

circumstantial trustworthiness.

25

so-called exculpatory exited utterances are almost like

13

Pet. App. 72a

And

And I think that

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1033 Filed 04/26/16 Page 14 of 190

1

a contradiction of terms.

2

I mean there is a strong possibility that a

3

defendant can contrive an excited utterance to appear to

4

express innocence.

5

excited utterances from a defendant on that basis

6

because there is no circumstantial element of

7

trustworthiness.

8

is exculpatory, could be purely a contrivance.

9

anyway

And I would be disinclined to allow

And the, the exited utterance, if it

10

MS. LINDSEY:

11

THE COURT:

12

MS. LINDSEY:

13

THE COURT:

14

MS. LINDSEY:

And, Judge,

But

just --

You have --- just so we can --- appellate issue now.
Just so we can make a complete

15

record,

16

Merchant 7-18-11 at 2:10 p.m. at Homicide, he was asked

17

the question in his witness statement did anybody say

18

anything after the shooting?

that the witness statement given by Rournelle

19

His answer on page two of that witness

20

statement was it was quiet.

21

happened.

22

23
24

25

Nobody believed what

So there's not even, according to his witness
statement, an assertion that was made.
MR. RADNER:

Then that even strengthens the

fact that he should be allowed; that the body language

14

Pet. App. 73a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1034 Filed 04/26/16 Page 15 of 190

·1
2

should have been allowed to come in because there was no
assertion that was made according to the prosecutor.

3

MS. LINDSEY:

4

THE COURT:

5

MR. RADNER:

6

THE COURT:

7

No, but he said nobody.
All right.

Okay.

Stop.

I'm just making the record.
We, we've spent, we've spent enough

time on this.

8

Okay.

9

made a record.

You're made your record.

10

MR. RADNER:

11

THE COURT:

12

MR. RADNER:

Everybody's

Just
We'll get the jury.
Can I just ask one last thing.

13

Just so that I, I don't wanna upset the Court, am I not

14

gonna be allowed to ask eyewitnesses how my client

15

reacted to today the shooting?

16
17

THE COURT:

Right.

Unless he, unless his

reaction was yes.

18

Are any of them gonna say that?

19

MR. RADNER:

20

gonna be the answer.

I wouldn't ask them if that was

21

THE COURT:

22

MR. RADNER:

23

THE COURT:

24

And just for the record, the Court made a

25

Well then you can't do it.
Okay.

Thank you.

All right.

thumbs up gesture.

15

Pet. App. 74a

Case 4:15-cv-13679-LVP-RSW ECF No. 10-11, PagelD.1035 Filed 04/26/16 Page 16 of 190

1

MS. LINDSEY:

2

Yes.

(At 10:19 a.m.,

3

THE COURT:

4

Sorry for the delay.

jury returned)

All right.

You may be seated.
I tend to be the eternal

5

optimistic about how quickly we can plow thorough other

6

things.

7

prepared now to give you our undivided attention for the

8

rest of the day I think.

And we did have a busy morning.

But we are

Now, one of you had asked when I said yesterday

9

10

that we're on track, what does that mean.

11

think we told you that this was going to be a six or

12

seven day trial, and that continues to be our collective

13

evaluation.

14
15

We are moving along pretty good here.
the fourth day.

16
17

Originally I

This is

And, okay.

Oh, you're reminding me about your jury duty.
When is that,

is it Monday?

18

JUROR NUMBER 1:

19

THE COURT:

20

So this is the fourth day.

Monday.

Okay.

I'll take care of it.
You won't be here

21

tomorrow.

22

we're gonna wrap this up by the end of the day Tuesday

23

at the latest.

24

now.

25

I,

I think we're, we're all confident that

So that, that's where we stand right

All right.

Ms. Brown apparently has a --

16

Pet. App. 75a

